/

APPENDIX

'i

la

TABLE OF CONTENTS
Page
Appendix A — Amended Opinion Affirming
District Court Order Granting Summary
Judgment for Pension Benefit Guaranty
Corporation (6th Cir. Dec. 28, 2020)................... .

la

Appendix B — Initial Opinion Affirming
District Court Order Granting Summary
Judgment for Pension Benefit Guaranty
Corporation (6th Cir. Sept. 1, 2020)........................ 29a
Appendix C - Order Denying Plaintiffs’
Motion for Summary Judgment and Granting
Defendants’ Motion for Summary Judgment
(E.D. Mich. Mar. 22, 2019)........................................ . 56a
Appendix D - Judgment (E.D. Mich. Mar.
22, 2019).......... ................................................... ......... 74a
Appendix E - Order Denying Petition for
Rehearing En Banc (6th Cir. Feb. 25, 2021).......... 75a
Appendix F — Amended Judgment (6th Cir.
Dec. 28, 2020)............................................................... 76a
Appendix G - Initial Judgment (6th Cir.
Sept. 1, 2020)................................................................ 77a
Appendix H — Letter from Sixth Circuit
Clerk regarding Amended Opinion and
Pending Petition for Rehearing En Banc (6th
Cir. Dec. 29, 2020)........................................................ 78a
Appendix I — Statutory Provisions Involved:
29 U.S.C. §§ 1303, 1342, 1347.................................. 80a

la
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Dennis Black; Charles
Cunningham; Kenneth
Hollis; Delphi Salaried
Retiree Association,
Plaintiffs-Appellants,

No. 19-1419

v.
Pension Benefit
Guaranty Corporation,
Defendant-Appellee.
Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.
No. 2:09-cv-13616—Arthur J. Tarnow,
District Judge.
Argued: January 28, 2020
Decided and Filed: December 28, 2020
Before: SILER, GIBBONS, and NALBANDIAN,
Circuit Judges.
COUNSEL
ARGUED: Anthony F. Shelley, MILLER &
CHEVALIER CHARTERED, Washington, D.C., for

2a
Appellants. John A. Menke, PENSION BENEFIT
GUARANTY CORPORATION, Washington, DC, for
Appellee. ON BRIEF: Anthony F. Shelley, Timothy
P. O’Toole, Michael N. Khalil, MILLER &
CHEVALIER CHARTERED, Washington, D.C., for
Appellants. John A. Menke, C. Wayne Owen, Jr.,
Craig T. Fessenden, Erin C. Kim, Elisabeth B. Fry,
PENSION BENEFIT GUARANTY CORPORATION,
Washington, DC, for Appellee.
AMENDED OPINION
SILER, Circuit Judge. Title IV of the Employee
Retirement Income Security Act of 1974 (“ERISA”)
creates an insurance program to protect employees’
pension benefits. The Pension Benefit Guaranty
Corporation (“PBGC”)—a wholly-owned corporation
of the United States government—is charged with
administering the pension-insurance program.
In this case, PBGC terminated the “Salaried
Plan,” a defined-benefit plan sponsored by Delphi
Corporation. The termination was executed through
an agreement between PBGC and Delphi pursuant to
29 U.S.C. § 1342(c). The appellants—retirees affected
by termination of the Salaried Plan—bring several
challenges to the termination. First, the retirees
argue that section 1342(c) requires a judicial
adjudication before a pension plan may be
terminated. Second, the retirees contend that
termination of the plan violated their due process
rights. Third, the retirees assert that PBGC’s decision
to terminate the Salaried Plan was arbitrary and
capricious.

3a
But the retirees’ arguments do not require
reversal.
First,
subsection
1342(c)
permits
termination of distressed pension plans by agreement
between PBGC and the plan administrator without
court adjudication. Second, the retirees have not
demonstrated that they have a property interest in
the full amount of their vested, but unfunded, pension
benefits. Third, PBGC’s decision to terminate the
Salaried Plan was not arbitrary and capricious. We
affirm.
I.
Delphi Corporation—an automotive parts supplier
and former subsidiary of General Motors Corporation
(“GM”)—was plan administrator and contributing
sponsor of several defined-benefit pension plans. The
plan at issue here, the Salaried Plan, covered
approximately 20,000 members of Delphi’s salaried,
non-unionized workforce, including appellants
Dennis Black, Chuck Cunningham, and Ken Hollis
(“retirees”).
In 2005, Delphi filed a voluntary petition for
Chapter 11 bankruptcy. As a result, Delphi stopped
paying the required contributions to its pension
plans, including the Salaried Plan.
In 2008, Delphi’s first Plan of Reorganization
(“2008 POR”) provided that all Delphi sponsored
pension plans would be frozen but would continue to
be reorganized under Delphi. But the 2008 POR failed
when Delphi’s post-emergence investors refused to
fund their investment agreement with Delphi.
As a result, Delphi asked GM to assume the
liabilities of the Salaried Plan. It appears that PBGC
was initially in favor of this arrangement.

4a
Even so, GM was facing financial struggles of its
own as a result of the financial crisis of 2008. An “Auto
Taskforce” was appointed to oversee efforts to support
and stabilize the auto industry and an “Auto Team”
was created by the United States Department of
Treasury to evaluate the restructuring plans of
automotive companies and to negotiate the terms of
any further assistance. See Christy L. Romero,
Treasury’s Role in the Decision for GM to Provide
Pension Payments to Delphi Employees 3 (Aug. 15,
(hereinafter
“SIGTARP
Report”),
2013)
https://www.sigtarp.gov/Audit%20Reports/SIGTARP
_Delphi_Report.pdf. In 2009, Treasury’s Auto Team
agreed to give GM $30.1 billion in Troubled Asset
Relief Program (“TARP”) funds conditioned on GM’s
completing a 40-day, “quick-rinse” bankruptcy. Id. at
35.
Eventually, an agreement was made to save the
pension plan of the hourly, unionized Delphi
employees (“Hourly Plan”) but terminate the Salaried
Plan. Pursuant to this agreement, GM would assume
the Hourly Plan pension liabilities and PBGC would
terminate the Salaried Plan and release any
remaining liens and claims on Delphi’s assets.
In June 2009, Delphi moved to modify its First
Amended Plan of Reorganization to reflect the
agreement to save the Hourly Plan and terminate the
Salaried Plan. In re Delphi Corp., No. 05-44481, Dkt.
No. 17030 (Bankr. S.D.N.Y. June 1, 2009). The
retirees filed an objection to Delphi’s Modified Plan in
the bankruptcy proceedings. Id. at Dkt. No. 18277
(Bankr. S.D.N.Y. July 15, 2009).
Then, on July 22, 2009, PBGC issued a Notice of
Determination to Delphi, notifying Delphi that it had
determined that the Salaried Plan must be

5a
terminated and that PBGC should be appointed as
statutory trustee of the plan. PBGC issued a press
release to notify plan participants of its decision.
Pension Benefit Guaranty Corporation, PBGC to
Assume Delphi Pension Plans (July 22, 2009),
https://www.pbgc.gov/news/press/releases/pr09-48.
That same day, PBGC initiated an action in district
court to adjudicate termination of the Salaried Plan.
See Pension Benefit Guar. Corp. v. Delphi Corp., No
2:09-cv-12876 (E.D. Mich, filed July 22, 2009).
On July 29, 2009, the retirees argued in support of
their objection to the proposed modifications to the
First Amended Plan of Reorganization. See In re
Delphi Corp., No. 05-44481, Dkt. Nos. 18668, 18707
(Bankr. S.D.N.Y. July 30, 2009). .
On July 30, 2009, the bankruptcy court overruled
the retirees’ objections and confirmed Delphi’s
Modified Chapter 11 Plan. In re Delphi Corp., No. OS44481, 2009 WL 2482146 at Dkt. No. 1 (Bankr.
S.D.N.Y. July 30, 2009).
On August 6, 2009, the retirees sought PBGC’s
consent to intervene in the termination proceedings
in district court. On August 7, 2009, PBGC
voluntarily dismissed the termination suit in district
court. Then, on August 10, 2009, PBGC and Delphi
executed a termination and trusteeship agreement
that terminated the Salaried Plan effective July 31,
2009.
Subsequently, in September 2009, the retirees
filed this lawsuit. After protracted litigation, the
district court granted summary judgment in favor of
PBGC. This appeal followed.

6a
II.
We review a district court’s grant of summary
judgment de novo, “applying the same standards as the district court.” Morehouse v. Steak N Shake, 938
F.3d 814, 818 (6th Cir. 2019) (quoting F. T. C. v. E.M.A.
Nationwide, Inc., 767 F.3d 611, 629 (6th Cir. 2014)).
“Summary judgment is appropriate if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Id. (internal quotations omitted);
see also Fed. R. Civ. P. 56(a). A material fact is one
that “might affect the outcome of the suit under the
governing law.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986).
Generally, we review the evidence in the light
most favorable to the nonmoving party. Morehouse,
938 F.3d at 818. But, “[w]here, as here, the parties
filed cross-motions for summary judgment, the court
must evaluate each party's motion on its own merits,
taking care in each instance to draw all reasonable
inferences against the party whose motion is under
consideration.” EMW Women’s Surgical Ctr., P.S.C. v.
Beshear, 920 F.3d 421, 425 (6th Cir. 2019) (internal
quotations omitted).
III.
The retirees contend that 29 U.S.C. § 1342(c)
requires a judicial adjudication prior to termination
of a distressed pension plan. They also argue that
their due process rights were violated and that
PBGC’s decision was arbitrary and capricious. We
begin with interpretation of section 1342.

7a
A.
Interpretation of 29 U.S.C. § 1342. Section 1342
outlines the procedure for institution of proceedings
by PBGC to terminate a distressed pension plan.
After reviewing the statutory text comprehensively
and applying relevant canons of statutory
interpretation, we conclude that subsection 1342(c)(1)
provides two alternative mechanisms for terminating
a distressed pension plan: (1) by application to a
United States district court for a decree that the plan
must be terminated, or (2) by agreement between
PBGC and the plan administrator.
Here, the parties dispute the appropriate
statutory procedure for termination of a pension plan
by PBGC. The retirees contend that subsection
1342(c) requires that PBGC obtain a judicial decree
before terminating a distressed pension plan. But
PBGC correctly argues that the statutory scheme
provides two procedural alternatives for terminating
a distressed pension plan, including by agreement
between PBGC and the plan administrator.
To resolve this dispute, we begin by examining the
statutory text. “We endeavor to ‘read statutes . . .
with an eye to their straightforward and
commonsense meanings.’” Bates v. Dura Auto. Sys.,
Inc., 625 F.3d 283, 285 (6th Cir. 2010) (quoting Henry
Ford Health Sys. v. Shalala, 233 F.3d 907, 910 (6th
Cir. 2000)). And we give “terms the ordinary meaning
that they carried when the statute was enacted.”
Norfolk S. Ry. v. Perez, 778 F.3d 507, 512 (6th Cir.
2015). The Supreme Court has called on “judicial
interpreterjs] to consider the entire text, in view of its
structure and-of the physical and logical relation of its
many parts.” Hueso v. Barnhart, 948 F.3d -324, 333
(6th Cir. 2020) (quoting Antonin Scalia & Bryan A.

8a
Garner, Reading Law: The Interpretation of Legal
Texts § 24, at p. 167 (2012) and citing Star Athletica,
L.L.C. v. Varsity Brands, Inc., 137 S. Ct. 1002, 1010
(2017)). Lastly, before deferring to an administrative
agency’s statutory interpretation, courts “must first
exhaust the ‘traditional tools’ of statutory
interpretation
and
‘reject
administrative
constructions’ that are contrary to the clear meaning
of the statute.” Arangure v. Whitaker, 911 F.3d 333,
336 (6th Cir. 2018) (quoting Chevron USA, Inc. v. Nat.
Res. Def. Council, Inc., 467 U.S. 837, 843 n.9 (1984)).
Section 1342 has several subsections. Subsection
1342(a) says that PBGC “may institute proceedings
under this section to terminate a plan” when PBGC
determines that certain specified criteria are met. 29
U.S.C. § 1342(a). But the statute does not specify
what type of “proceedings” may be initiated to
terminate a pension plan. At the time the statute was
written, “proceeding” could have several meanings,
including: “action or course of action [,] ... a
particular course of action . . . [or a] legal action.”
Proceeding, Webster’s New Twentieth Century
Dictionary of the English Language 1434 (2d ed.
1979). Thus, proceedings are not necessarily limited
to a judicial adjudication, but may also contemplate
an administrative proceeding or some-other course of
action.
Subsection 1342(b) provides for appointment of a
trustee after initiation of termination proceedings.
Subsection (b)(1) authorizes PBGC to apply to the
United States district court for appointment of a
trustee to administer the plan “pending the issuance
of a decree under subsection (c) ordering the
termination of the plan.” 29 U.S.C. § 1342(b)(1). Even
so, subsection (b)(3) allows PBGC and the plan

i

9a
administrator to agree “to the appointment of a
trustee without proceeding in accordance with the
requirements of paragraphs [(b)](l) and [(b)](2).” Id. §
1342(b)(3).
Subsection 1342(c) is the primary subsection at
issue here. The title of the subsection, “[adjudication
that plan must be terminated,” may lend some
support to the retirees’ assertion that an adjudication
must occur before a pension plan is terminated. Id. §
1342(c). Still, while subsection titles “are of use [ ]
when they shed light on some ambiguous word or
phrase . . . they cannot undo or limit what the text
makes plain.” Brotherhood of Ry. Trainmen v.
Baltimore & OhioRy., 331 U.S. 519, 529 (1947). Thus,
we look to the subsection’s substantive text.
The first sentence of subsection 1342(c)(1) says
that when PBGC commences proceedings under
subsection (a) “it may . . . apply to the appropriate
United States district court for a decree adjudicating
that the plan must be terminated ... .” 29 U.S.C. §
1342(c)(1) (emphasis added). Similarly, the second
sentence states, “If the trustee appointed- under
subsection (b) disagrees with the determination of the
corporation under the preceding sentence he may
intervene in the proceeding relating to the application
for the decree, or make application for such decree
himself.” Id. (emphasis added).
Next, the third sentence says that;
Upon granting a decree for whieh the
corporation or trustee has applied under this
subsection the court shall authorize the
trustee appointed under subsection (b) (or
appoint a trustee if one has not been
appointed under such subsection and

V

10a
authorize him) to terminate the plan in
accordance with the provisions of this
subtitle.
Id. This sentence simply states that if a judicial
decree is granted that “the court shall authorize the
trustee ... to terminate the plan in accordance with
the provisions of this subtitle.” Id.
Now, we turn to the main sentence in dispute. In
its entirety, the fourth sentence of subsection (c)(1)
says:
If the corporation and the plan administrator
agree that a plan should be terminated and
agree to the appointment of a trustee without
proceeding
in
accordance
with
the
requirements of this subsection (other than
this sentence) the trustee shall have the
power described in subsection (d)(1) and, in
addition to any other duties imposed on the
trustee under law or by agreement between
the corporation and the plan administrator,
the trustee is subject to the duties described
in subsection (d)(3).
Id. The fourth sentence presents a conditional if-then
proposition. If the first two conditions are met—“the
[PBGC] and the plan administrator agree that a plan
should be terminated and agree to the appointment of
a trustee”—then “the trustee shall have the power
described in subsection (d)(1) and ... is subject to the
duties described in subsection (d)(3).” Id.
But the proper interpretation of part of the second
clause of the fourth sentence—“without proceeding in
accordance with the requirements of this subsection
(other than this sentence)”—is in dispute.

11a
The retirees read the language to mean that PBGC
and the administrator may only agree to appoint a
trustee without proceeding in accordance with the
requirements of subsection (c)(1). In other words, the
only requirements of subsection (c) that are waived
are those that deal with appointment of a trustee.
Thus, the retirees’ position is that the fourth sentence
of subsection (c)(1) only provides an additional
method of appointing a trustee after a judicial decree
is entered but does not eliminate the requirement for
an adjudication.
Alternatively, PBGC interprets the disputed text
to say that if the parties agree to terminate the plan
and agree to the appointment of a trustee, then
without proceeding in accordance with the
requirements of the subsection, including the
requirement of court adjudication, the trustee shall
have the authority described in subsection (d). Put
differently, an agreement between PBGC and
administrator that a plan should be terminated and
to appoint a trustee obviates all other requirements
found in subsection (c), including any requirement for
an adjudication. Under this interpretation, PBGC
and a plan administrator may agree to appoint a
trustee to terminate a distressed plan without a
judicial decree.
To resolve the dispute, we first look to the plain
text of the relevant subsection. The repeated use of
the permissive verb “may” in subsection (c)(1)—as
opposed to mandatory words like shall1 or must—
indicates that a trustee appointed under subsection
1 Of course, depending on usage, “shall” may have several
permissible meanings. See Scalia & Garner, supra, § 11, at pp.
112-15. Still, “when the word shall can reasonably be read as
mandatory, it ought to be so read.” Id. at 114.

12a
(b) is permitted, but not required, to intervene in a
proceeding relating to the application for a decree or
to initiate a proceeding if one has not been initiated.
See Scalia & Garner, supra, § 11, at p. 112
(“Mandatory words impose a duty; permissive words
grant discretion.”). Subsection (c)(1) uses no
mandatory language that explicitly requires
adjudication by a court. As a result, the plain text of
subsection (c)(1) permits—but does not require—
court adjudication before termination of a distressed
pension plan.
Next, we consider relevant canons of statutory
interpretation. PBGC argues that the retirees’
interpretation violates the canon against surplusage
because it renders subsection 1342(b)(3) meaningless.
See Scalia & Garner, supra, at § 26, p. 174. Subsection
(b)(3) authorizes PBGC and the plan administrator to
appoint a trustee without proceeding with the
requirements of subsections (b)(1) or (b)(2). While the
retirees’ interpretation of subsection (c)(1) does not
necessarily render subsection (b)(3) superfluous, it
does expose a flaw in their interpretation.
The retirees argue that sentence 4 of subsection
(c)(1) is distinct from subsection (b)(3). As the retirees
read the statute, sentence 4 of subsection (c)(1)
addresses a unique circumstance where the trustee
alone has sought to execute termination and PBGC
has not sought a decree under sentence 1 of
subsection (c)(1). Thus, as the retirees read sentence
4 of subsection (c)(1), it is only operative if the trustee
alone seeks termination under sentence 2 of
subsection (c)(1) and the court issues a decree to
terminate the plan under sentence 3 of subsection
(c)(1). If that happens and the conditions of the if-then
clause are met, then the trustee has the powers

13a
outlined in subsection (d)(1) and is subject to the
duties in (d)(3). In other words, the retirees posit that
subsection (b)(3) allows PBGC and the administrator
to agree on the appointment of a trustee during the
period right after the initiation of termination
proceedings under subsection (a) but before a decree
for termination is entered.
The problem with the retirees’ argument,
however, is that the plain language of sentence 4 is
not limited to a situation in which the PBGC and
administrator agree to the appointment of a trustee
during the period after initiation of termination
proceedings but before a decree for termination is
entered. Instead, sentence 4 allows the parties to
proceed without complying with the requirements in
all other sentences of subsection (c)(1) unequivocally.
Thus, by its own language, sentence 4 allows the
parties to terminate a plan without a court
adjudication so long as the parties agree that a plan
should be terminated and agree to appointment of a
trustee.
Moreover, we consider the statutory language
comprehensively and in context. Under the retirees’
interpretation, the second condition of the fourth
sentence’s if-then proposition is that PBGC and
administrator must “agree to the appointment of a
trustee without proceeding in accordance with the
requirements of this subsection.” 29 U.S.C. §
1342(c)(1). But that is illogical because subsection (c)
only mentions appointment of a trustee once;
providing for appointment of a trustee by the court if
a trustee was not previously appointed under
subsection (b). See id. And subsection (b) primarily
provides the procedures for appointment of a trustee
under the statute, not subsection (c). Thus, it is

14a
unclear how the parties can “agree to the
appointment of a trustee without proceeding in
accordance with the requirements of [subsection (c)],”
when subsection (c) contains no requirements dealing
with the appointment of a trustee, except for a
passing phrase allowing the court to appoint a trustee
if one has not already been appointed under
subsection (b).
Lastly, our interpretation is also supported by
persuasive authority from other circuits. In Jones &
Laughlin Hourly Pension Plan u. LTV Corporation,
the United States Court of Appeals for the Second
Circuit held that “[t]he fourth sentence of subsection
1342(c) provides that where, as here, PBGC and the
plan administrator agree to terminate a plan, PBGC
need not comply with the other requirements of ‘this
subsection.”’ 824 F.2d 197, 200 (2d Cir. 1987).
“Congress, therefore, expressly dispensed with the
necessity of a court adjudication in these cases.” Id.
Thus, the Second Circuit has held that Congress
expressly dispensed with the necessity of a court
adjudication where the PBGC and plan administrator
agree to terminate a plan.
The retirees’ contention that Jones & Laughlin
conflicts with a Seventh Circuit decision, In re UAL
Corporation, 468 F.3d 444 (7th Cir. 2006), is
unavailing. The Seventh Circuit stated that
“[njothing in 29 U.S.C. § 1342(c), which describes the
judicial function after the PBGC files an action
seeking termination, suggests that the court must
defer to the agency’s view.” Id. at 450. But Jones &
Laughlin and In re UAL Corporation addressed two
distinct legal issues. In Jones & Laughlin, the Second
Circuit addressed whether subsection 1342(c)
authorized termination of a pension plan by

15a
agreement
between
and
the
plan
PBGC
administrator. 824 F.2d at 200. In contrast, in In re
UAL Corporation, the Seventh Circuit considered the
appropriate standard of review in a suit where a plan
administrator disagrees with the termination and
PBGC seeks a court order to terminate a plan. See 468
F.3d at 447-50. Thus, to the extent that the Seventh
Circuit made pronouncements in In re UAL
Corporation that support the retirees’ interpretation,
those pronouncements would constitute dicta because
the court did not rest its ultimate judgment on
interpretation of 29 U.S.C. § 1342(c). See Wright v.
Spaulding, 939 F.3d 695, 700-02 (6th Cir. 2019)
(discussing principles to determine if a court’s
discussion constitutes a holding); see also United
States v. Swanson, 341 F.3d 524, 530 (6th Cir. 2003)
(explaining that, generally, dictum is anything “not
necessary to the determination of the issue on
appeal”).
Even so, the retirees also argue that Jones &
Laughlin is unpersuasive because it utilized outdated
notions of statutory interpretation and relied on an
obsolete understanding of deference to administrative
agencies’ statutory interpretations.
First, the retirees’ assertion that Jones &
Laughlin should not be followed because the Second
Circuit impermissibly added words to subsection
1342(c) is unconvincing. The Jones & Laughlin court
did not add any words, to the statute when
interpreting the relevant provision in subsection
1342(c)(1).2

2 After determining that subsection 1342(c) dispensed with the
necessity of court adjudication, the Jones & Laughlin court said,
“The remainder of the fourth sentence of subsection 1342(c)

16a
The retirees’ second argument—that the Jones &
Laughlin court impermissibly relied on outdated
notions of the deference owed to federal agencies—is
more persuasive but still misses the mark. The
Second Circuit based its interpretation on “the
deference owed to the PBGC as [a] federal agency”
and the court’s own interpretation of the statutory
language. See 824 F.2d at 200 n.3. Thus, the Second
Circuit’s statutory interpretation is still entitled to
consideration as persuasive authority for this court
even if notions of deference to administrative agency
interpretations have changed since Jones & Laughlin
was decided.
Lastly, decisions in several federal circuits,
including a published opinion in this circuit, have
acknowledged terminations of distressed pension
plans by agreement between PBGC and the plan
administration pursuant to 29 U.S.C. § 1342(c)(1). See
Pension Benefit Guar. Corp. v. Alloytek, Inc., 924 F.2d
620, 624 (6th Cir. 1991) (citing 29 U.S.C. § 1342(c)(1)
and acknowledging that “the parties agreed to a
consent order which incorporated their agreement
and terminated the Plan, established a termination
date and provided for the appointment of a trustee”);
see also, e.g., Allied Pilots Ass’n v. Pension Benefit
Guar. Corp., 334 F.3d 93, 97 (D.C. Cir. 2003)
supports this interpretation. It grants to the trustee (PBGC)
‘without proceeding in accordance with the requirements of-this
subsection . . . the power described in subsection (d)(1) of-this
section and [subjects the trustee] ... to -the duties described in
subsection (d)(3).’” 824 F.2d at 200 (citing 29 U.S.C. § 1342)
(alterations in original). Thus, the addition with which the
retirees take issue appears to have had no effect on the court’s
interpretation of whether subsection 1342(c) authorizes
termination by agreement without court adjudication.

17a
(recognizing that PBGC may seek termination
through district court enforcement or voluntary
settlement); In re Syntex Fabrics, Inc. Pension Plan,
698 F.2d 199, 201 (3d Cir. 1983) (“Despite the socalled involuntary nature of a section 1342
proceeding, PBGC and the plan administrator can .
still agree to terminate the plan and appoint a trustee
without resort to the court.”)* Of course, these
decisions did not directly consider the proper
interpretation of subsection 1342(c). Still, they
provide strong persuasive authority that several
circuits, including our own, have at least recognized a
procedure where distressed pension plans may be
terminated by agreement under subsection 1342(c)
without court adjudication. Moreover, the retirees
have not cited, nor are we aware of, any federal
authority accepting their proposed interpretation,
that termination of a distressed pension plan must be
accomplished through court adjudication.
In sum, the most appropriate interpretation of
subsection 1342(c)(1) is that it provides two
alternative mechanisms for terminating a distressed
pension plan. First, the subsection uses permissive
language when discussing an in-court adjudication
before terminating a pension plan. Second, subsection
(c)(1) is not limited to a situation after initiation of
termination proceedings under subsection (a) but
before a decree for termination is entered. Third, the
retirees’ interpretation—that if the parties agree that
a plan should be terminated they may appoint a
trustee without proceeding in accordance with the
requirements of subsection (c)(1)—is illogical because
the only provision of subsection (c)(1) that deals with
the appointment of a trustee is one that allows for
appointment of a trustee by the court if one was not

18a
appointed pursuant to the requirements of subsection
(b). Lastly, the only circuit to directly interpret the
statutory language at issue here reached the same
conclusion, and the weight of federal authority
acknowledges a procedure where PBGC and the plan
administrator may terminate a pension plan by
agreement without resort to the courts. As a result,
we hold that 29 U.S.C. § 1342(c)(1) allows a plan
administrator and the PBGC to terminate a
distressed pension plan by agreement, without court
adjudication.
B.
Procedural Due Process. The retirees also claim
that their due process rights were violated because
they were not afforded a hearing prior to plan
termination. We conclude, however, that the retirees
do not have a property interest in the full amount of
their vested pension benefits because the Salaried
Plan document provides that only funded benefits at
the time of plan termination are nonforfeitable. And,
since the retirees do not have a protected property
interest in their remaining unpaid yet vested pension
benefits, no due process violation has occurred.
The due process analysis requires two inquiries.
Leary v. Daeschner, 228 F.3d 729, 741 (6th Cir. 2000).
First, we determine whether the retirees have a
protected property interest in their vested—but
unfunded—pension benefits. Id. Second, if they do,
then we consider whether PBGC’s termination of the
Salaried Plan resulted in a deprivation of property
without adequate procedural safeguards. Id. at 742.
To have a property interest in their vested pension
benefits, the retirees “clearly must have more than an
abstract need or desire for [them] . . . more than a

19a
unilateral expectation of [them] . . . instead, [they]
must instead have a legitimate claim of entitlement
to [them].” See Bd. of Regents of State Colls, u. Roth,
408 U.S. 564, 577 (1972). Still, “[p]roperty
interests . . . are not created by the Constitution.” Id.
“Rather [property interests] are created and their
dimensions are defined by existing rules or
understandings that stem from an independent
source such as state law—rules or understandings
that secure certain benefits and that support claims
of entitlement to those benefits.” Id.
Thus, to determine if the retirees have a legitimate
claim of entitlement to the entire amount of their
vested pension benefits, we must look to the source
that creates the purported property interest. Here,
the source of the purported property interest is a
private contract between the retirees and Delphi. The
Salaried Plan document provides that, in the event of
plan termination, the “right of all affected employees
to benefits accrued to the date of such termination . . .
to the extent funded as of such date, is nonforfeitable.”
In other words, the document provides that funded
benefits accrued up to the date of plan termination
are nonforfeitable.
What about unfunded benefits? The Salaried Plan
document contains a provision that provides that
benefits that are funded at the time of plan
termination are nonforfeitable. By necessary
implication, unfunded benefits are forfeitable upon
plan termination. And so it would seem that retirees
have no legal interest in any unfunded yet vested
benefits. Binding precedent and ERISA, however,
complicate the matter.
ERISA insurance covers “the difference between
[an] employee’s vested benefits under the terms of the

20a
plan . . . and the amount that could be paid from [a]
terminated plan’s assets.” Nachman Corp. v. Pension
Ben. Guar. Corp., 446 U.S. 359, 382 (1980). And
Supreme Court and Sixth Circuit case law establishes
that clauses limiting recovery to funded benefits, like
the one here, do not impact ERISA coverage of vested ^
yet unfunded benefits. Id. at 372 (“[A] clause limiting
an employer’s liability does not make otherwise
vested benefits forfeitable within the meaning of the
Act.”); Matter of Defoe Shipbuilding Co., 639 F.2d 311,
312, 314 (6th Cir. 1981) (holding a plan provision
providing that “accrued benefits shall be non­
forfeitable to the extent funded” was “overridden by
the
provisions
in
ERISA
identifying
the
nonforfeitable benefits guaranteed by PBGC,” which
meant that “the full amount of benefits vested in
participants of [the] plan is nonforfeitable”). The
upshot is that ERISA insurance covers the unfunded
benefits here. But that does not mean that the
retirees are statutorily entitled to the full amount of
the unfunded benefits. It simply means that they are
entitled to PBGC coverage up to the statutory
guarantee, which means that retirees have a
statutory right to some payment despite lack of
funding. See 29 U.S.C. § 1322(b)(3). The payment just
comes from PBGC rather than from the plan itself.
See id. § 1322(a).
PBGC does not “dispute that [the retirees’] vested
benefits are insured by PBGC”; in fact, “PBGC has
been paying those vested benefits up to the guarantee
limit for over ten years.” And this case is not about
the retirees’ right to funded benefits. So the only
purported property interest that could have been
deprived without adequate process is the retirees’
interest in the unpaid benefits beyond the ERISA

21a
guarantee limit. And the retirees do not have a
legitimate entitlement to this remaining balance
under ERISA given the guarantee limits or contract
law based on the plain language in the Salaried Plan
document.
The retirees’ arguments to the contrary are
unavailing. First, the retirees contend that this
court’s decision in Duncan v. Muzyn, 833 F.3d 567
(6th Cir. 2016), stands for the proposition that
“whether a benefit is constitutionally protected” turns
on “whether it has vested.” In Duncan, we addressed
whether the Tennessee Valley Authority Retirement
System (“TVARS”) board violated the Takings Clause
when it eliminated cost-of-living adjustments for
TVARS-managed pension plans. 833 F.3d at 570. We
concluded that while “plaintiffs’ claim [was] framed as
a Takings claim, the analysis borrow [ed] principles
from the Contract Clause context.” Id. at 583.
Additionally, we recognized that “[w]here a public
contract is alleged to have been created by statute,
however, a plaintiff may prove a contractual
relationship only by showing that the legislature has
unmistakably intended to create a binding contract
right.” Id. at 583-84. As a result, we held that the
plaintiffs were not deprived of a property right
because the COLAs were not vested, and the plaintiffs
had failed to show that TVARS unmistakably
intended to create a binding contract right. Id. at 584.
Contrary to the retirees’ assertion, Duncan is not
controlling here. First, Duncan did not explicitly hold
that plan beneficiaries always have a property
interest in vested pension benefits. See id. at 583-84.
Duncan addressed different legal issues than those
raised in this case. And the purported property
interest in this, case arises from a private contract, not

22a
a public contract. See id. As such, the retirees’
reliance on Duncan is misplaced.
Second, the retirees argue that PBGC’s
interpretation of the Salaried Plan document
provision above would violate ERISA’s anti-cutback
rule. The anti-cutback rule provides that “[t]he
accrued benefit of a participant under a plan may not
be decreased by an amendment of the plan, other than
an amendment described in section 1082(d)(2) or 1441
of this title.” 29 U.S.C. § 1054(g)(1). But here, there
was a termination of the Salaried Plan, not an
amendment. For this reason, it does not appear that
the Salaried Plan document provision, which deals
only with termination, violates the anti-cutback rule.
Third, the retirees contend that “whether the
Retirees have a protected property interest in the full
measure of their vested pension benefits cannot turn
on the assumed legality of the challenged action (here,
the Plan’s termination).” But that argument conflates
two distinct issues. The retirees contend that the
termination of the plan by agreement between the
PBGC and plan administrator was illegal because it
did not comport with the requirements of 29 U.S.C. §
1342(c). Of course, if the retirees are correct, the
action taken by PBGC was illegal and we need not
reach the question of whether the retirees have a
property interest in the entirety of their vested
benefits.
But, if the plan termination by agreement was
legal, the relevant question here asks whether, based
on the provision in the Salaried Plan document, the
retirees have a legitimate claim of entitlement to the
entire amount of their vested benefits, no matter how
the plan was terminated. The answer to that question
is no because the retirees only have a legitimate claim

23a
of entitlement to the funded benefits pursuant to the
Salaried Plan document and ERISA coverage up to
the statutory guarantee. Thus, the second question,
whether the retirees have a property interest in the
entire amount of their vested pension benefits is
considered only if the first question, whether PBGC
legally terminated the Salaried Plan, is answered in
the affirmative.
In sum, neither ERISA nor the Salaried Plan
document create a legitimate claim of entitlement to
the entire amount of their vested, but unfunded,
pension benefits. And because the retirees do not have
a, legal entitlement to the unpaid balance, their
procedural due process claim fails.
C.
Arbitrary and Capricious. The retirees have not
demonstrated that PBGC’s decision to terminate the
Salaried Plan was arbitrary and capricious. The
retirees cite evidence to support their position that
the plan was not sufficiently underfunded, that GM
was willing to consider assuming the Salaried Plan,
and that PBGC failed to push back against the Auto
Taskforce. Still, there is sufficient countervailing
evidence to support PBGC’s decision to terminate the
Salaried Plan under the criteria found in 29 U.S.C. §
1342(a).
PBGC’s final determination is entitled to
deference and “will be upheld unless it is shown to be
‘arbitrary, capricious, an abuse of' discretion, or
otherwise not in accordance with law.’” Pension
Benefit Guar. Corp. v. Ky. Bancshares, Inc., 597 F.
App’x 841, 842-43 (6th Cir. 2015) (quoting 5 U.S.C. §
706(2) (A) and citing Pension Benefit Guar. Corp. v.

24a
LTVCorp., 496 U.S. 633 (1990)). PBGC’s decision will
be upheld unless we find that the decision:
has relied on factors which Congress had not
intended it to consider, entirely failed to
consider an important aspect of the problem,
offered an explanation for its decision that
runs counter to the evidence before the
agency, or is so implausible that it could not
be ascribed to a difference in view or the
product of agency expertise.
Nat’l Ass’n of Home Builders v. Defs. of Wildlife, 551
U.S. 644, 658 (2007) (quoting Motor Vehicle Mfrs.
Ass’n of U.S., Inc. u. State Farm Mut. Auto. Ins. Co.,
463 U.S. 29, 43 (1983)). As a reviewing court, we are
not at liberty to substitute our judgment for the
judgment of the agency. Motor Vehicle Mfrs. Ass’n.,
463 U.S. at 43.
Congress authorized PBGC to initiate termination
proceedings when it determines that:
(1) the plan has not met the minimum funding
standard required under section 412 of Title
26, or has been notified by the Secretary of the
Treasury that a notice of deficiency under
section 6212 of Title 26 has been mailed with
respect to the tax imposed under section
4971(a) of Title 26, (2) the plan will be unable
to pay benefits when due, (3) the reportable
event described in section 1343(c)(7) of this
title has occurred, or (4) the possible long-run
loss of the corporation with respect to the plan
may reasonably be expected to increase
unreasonably if the plan is not terminated.
29 U.S.C. § 1342(a). And ERISA states three
objectives that PBGC must carry out:

25a
(1) to encourage the continuation and
maintenance of voluntary private pension
plans for the benefit of their participants, (2)
to provide for the timely and uninterrupted
payment of pension benefits to participants
and beneficiaries under plans to which this
subchapter applies, and (3) to maintain
premiums established by the corporation
under section 1306 of this title at the lowest
level consistent with carrying out its
obligations under this subchapter.
Id. § 1302(a).
The retirees advance several arguments in support
of their contention that PBGC’s decision to terminate
the Salaried Plan was arbitrary and capricious.
First, the retirees contend that GM was willing to
consider reassuming the Salaried Plan during its
negotiations with the government. And, they argue
that PBGC believed that assumption of the Salaried
Plan by GM was a viable option until PBGC folded
under pressure by the Treasury Department.
But, even when viewing the evidence in the light
most favorable to the retirees and drawing all
reasonable inferences in their favor, there is ample
countervailing evidence to demonstrate that GM was
unwilling to assume the Salaried Plan’s liabilities.
Even if GM was willing to consider assuming the
Salaried Plan, and even if PBGC was initially in favor
of GM’s assumption of the plan, GM never
demonstrated an affirmative willingness to assume
the Salaried Plan. No doubt, GM considered assuming
the Salaried Plan as part of the broader negotiations
between GM and the government. And PBGC initially
listed assumption of the Salaried Plan by -GM as an

26a
alternative to plan termination. But the retirees
acknowledge that GM refused to assume the Salaried
Plan and there is no evidence demonstrating that
GM’s assumption of the plan was a viable alternative
to termination. Thus, PBGC’s action cannot be found
to be arbitrary and capricious based on its failure to
convince GM to assume the Salaried Plan when GM
never expressed more than willingness to consider
accepting the plan’s liabilities.
Moreover, the retirees’ main contention seems to
be that PBGC should have exerted more pressure on
the Treasury Department to ensure that GM would
assume the Salaried Plan. But that argument is
flawed for several reasons.
First, the retirees’ main grievance on this point
seems to be with Treasury’s decision not to bail out
the, Salaried Plan. And, as PBGC notes, the district
court dismissed the claims against the Treasury
defendants early in the litigation and the retirees
chose not to appeal that dismissal. Still, on this point,
it appears that the retirees’ main complaint is that
Treasury should have bailed out the Salaried Plan,
not that PBGC’s decision to terminate that plan was
arbitrary and capricious. Ultimately, PBGC’s action
cannot be found to be arbitrary and capricious
because of a failure of the Treasury Department.
Second, PBGC’s decision making process cannot
be viewed in a vacuum. The retirees argue that
PBGC’s failure to exert pressure on Treasury
indicates that the decision to terminate that Salaried
Plan was arbitrary and capricious. But there were
many competing interests that PBGC had to weigh in
deciding to terminate the Salaried Plan. Plus, that
decision was made in the context of the government’s
urgent attempt to save GM and the automotive

27a
industry. PBGC was forced to consider other Delphi
pension plans, including the Hourly Plan, which was
assumed by GM. Additionally, PBGC had to consider
that a delayed termination decision might affect the
GM negotiations and could endanger PBGC’s ability
to recover funds from statutory liens that had been
put into place. Even if PBGC failed to exert pressure
on Treasury to bailout the Salaried Plan, that cannot
make their decision to terminate the Salaried Plan
arbitrary and capricious under the circumstances.
Third, there was sufficient evidence to justify
termination of the Salaried Plan. The retirees contend
that evidence demonstrated the Salaried Plan’s
funding level was 85.62%. But, even if that was true,
PBGC points out that percentage of underfunding is
not a factor to be considered under 29 U.S.C. §
1342(a). Plus, countervailing evidence demonstrates
that the Salaried Plan was severely underfunded. For
instance, the record indicates that the Salaried Plan
was only funded 46.1% on a termination basis. And,
even if the Salaried Plan was not underfunded, it is
undisputed that Delphi had missed minimum funding
contributions, which justified plan termination under
§ 1342(a)(1). As a result, section 1342(a)’s criteria for
termination were satisfied, justifying PBGC’s
decision to terminate the Salaried Plan.
Lastly, the retirees note that between 2005 and
2009, PBGC worked with thirteen auto-parts
suppliers that emerged from bankruptcy without
terminating the pension plans sponsored by those
companies. They say that lends support to their
arbitrary and capricious theory. Not so. First, the
evidence demonstrates that PBGC explored
alternatives to plan termination and participated in
Delphi’s bankruptcy negotiations for years before

28a
making its final decision to terminate the Salaried
Plan. Second, the fact that PBGC negotiated with
other companies to save their pension plans from
termination is not evidence that the decision it made
in this instance was arbitrary and capricious.
At bottom, it is inappropriate for this court to play
armchair administrative agency with the benefit of
hindsight. Even if we would have reached a different
conclusion in the first instance, PBGC’s decision to
terminate the Salaried Plan was supported by
sufficient evidence. Therefore, we hold that PBGC’s
action was not arbitrary and capricious.
IV.
In sum, the retirees have not raised any argument
warranting reversal. First, 29 U.S.C. § 1342(c)(1)
provides two mechanisms for termination of a
distressed pension plan—including termination by
agreement between a plan administrator and the
PBGC. Second, the retirees do not have a property
interest in remaining unpaid yet vested benefits.
Third, PBGC’s decision to terminate the Salaried
Plan was not arbitrary and capricious because there
is ample evidence to support PBGC’s decision. As a
result, the district court’s judgment is AFFIRMED.

29a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Dennis Black; Charles
Cunningham; Kenneth
Hollis; Delphi Salaried
Retiree Association,
Plaintiffs-Appellants,

No. 19-1419

v.
Pension Benefit
Guaranty Corporation,
Defendant-Appellee.
Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.
No. 2:09-cv-13616—Arthur J. Tarnow,
District Judge.
Argued: January 28, 2020
Decided and Filed: September 1, 2020
Before: SILER, GIBBONS, and NALBANDIAN,
Circuit Judges.
COUNSEL
ARGUED: Anthony F. Shelley, MILLER &
CHEVALIER CHARTERED, Washington, D.C., for

30a
Appellants. John A. Menke, PENSION BENEFIT
GUARANTY CORPORATION, Washington, D.C., for
Appellee. ON BRIEF: Anthony F. Shelley, Timothy
P. O’Toole, Michael N. Khalil, MILLER &
CHEVALIER CHARTERED, Washington, D.C., for
Appellants. John A. Menke, C. Wayne Owen, Jr.,
Craig T. Fessenden, Erin C. Kim, Elisabeth B. Fry,
PENSION BENEFIT GUARANTY CORPORATION,
Washington, D.C., for Appellee.
OPINION
SILER, Circuit Judge. Title IV of the Employee
Retirement Income Security Act of 1974 (“ERISA”)
creates an insurance program to protect employees’
pension benefits. The Pension Benefit Guaranty
Corporation (“PBGC”)—a wholly-owned corporation
of the United States government—is charged with
administering the pension-insurance program.
In this case, PBGC terminated the “Salaried
Plan,” a defined-benefit plan sponsored by Delphi
Corporation. The termination was executed through
an agreement between PBGC and Delphi pursuant to
29 U.S.C. § 1342(c). The appellants—retirees affected
by termination of the Salaried Plan—bring several
challenges to the termination. First, the retirees
argue that section 1342(c) requires a judicial
adjudication before a pension plan may be
terminated. Second, the retirees contend that
termination of the plan violated their due process
rights. Third, the retirees assert that PBGC’s decision
to terminate the Salaried Plan was arbitrary and
capricious.

31a
But the retirees’ arguments do not require
reversal.
First,
subsection
1342(c)
permits
termination of distressed pension plans by agreement
between PBGC and the plan administrator without
court adjudication. Second, the retirees have not
demonstrated that they have a property interest in
the full amount of their vested, but unfunded, pension
benefits. Third, PBGC’s decision to terminate the
Salaried Plan was not arbitrary and capricious. We
affirm.
I.
Delphi Corporation—an automotive parts supplier
and former subsidiary of General Motors Corporation
(“GM”)—was plan administrator and -contributing
sponsor of several defined-benefit pension plans. The
plan at issue here, the Salaried Plan, covered
approximately 20,000 members of Delphi’s salaried,
non-unionized workforce, including appellants
Dennis Black, Charles Cunningham, and Kenneth
Hollis (“retirees”).
In 2005, Delphi filed a voluntary petition for
Chapter 11 bankruptcy. As a result, Delphi stopped
paying the required contributions to its pension
plans, including the Salaried Plan.
In 2008, Delphi’s first Plan of Reorganization
(“2008 POR”) provided that all Delphi sponsored
pension plans would be frozen but would continue to
be reorganized under Delphi. But the 2008 POR failed
when Delphi’s post-emergence investors refused to
fund their investment agreement with Delphi,
As a result, Delphi asked GM to assume the
liabilities of the Salaried Plan. It appears that PBGC
was initially in favor of this arrangement.

32a
Even so, GM was facing financial struggles of its
own as a result of the financial crisis of 2008. An “Auto
Taskforce” was appointed to oversee efforts to support
and stabilize the auto industry and an “Auto Team”
was created by the United States Department of
Treasury to evaluate the restructuring plans of
automotive companies and to negotiate the terms of
any further assistance. See Christy L. Romero,
Treasury’s Role in the Decision for GM to Provide
Pension Payments to Delphi Employees 3 (Aug. 15,
“SIGTARP
Report”),
2013)
(hereinafter
https://www.sigtarp.gov/Audit%20Reports/SIGTARP
_Delphi_Report.pdf. In 2009, Treasury’s Auto Team
agreed to give GM $30.1 billion in Troubled Asset
Relief Program (“TARP”) funds conditioned on GM’s
completing a 40-day, “quick-rinse” bankruptcy. Id. at
35.
Eventually, an agreement was made to save the
pension plan of the hourly, unionized Delphi
employees (“Hourly Plan”) but terminate the Salaried
Plan. Pursuant to this agreement, GM would assume
the Hourly Plan pension liabilities and PBGC would
terminate the Salaried Plan and release any
remaining liens and claims on Delphi’s assets.
In June 2009, Delphi moved to modify its First
Amended Plan of Reorganization to reflect the
agreement to save the Hourly Plan and terminate the
Salaried Plan. In re Delphi Corp., No. 05-44481, Dkt.
No. 17030 (Bankr. S.D.N.Y. June 1, 2009). The
retirees filed an objection to Delphi’s Modified Plan in
the bankruptcy proceedings. Id. at Dkt. No. 18277
(Bankr. S.D.N.Y. July 15, 2009).
Then, on July 22, 2009, PBGC issued a Notice of
Determination to Delphi, notifying Delphi that it had
determined that the Salaried Plan must be

33a
terminated and that PBGC should be appointed as
statutory trustee of the plan. PBGC issued a press
release to notify plan participants of its decision.
Pension Benefit Guaranty Corporation, PBGC to
Assume Delphi Pension Plans (July 22, 2G09),
https://www.pbgc.gov/news/press/releases/pr09-48.
That same day, PBGC initiated an action in district
court to adjudicate termination of the Salaried Plan.
See Pension Benefit Guar. Corp. v. Delphi Corp., No
2:09-cv-12876 (E.D. Mich, filed July 22, 2009).
On July 29, 2009, the retirees argued in support of
their objection to the proposed modifications to the
First Amended Plan of Reorganization. See In re
Delphi Corp., No. 05-44481, Dkt. Nos. 18668, 18707
(Bankr. S.D.N.Y. July 30, 2009).
On July 30, 2009, the bankruptcy court overruled
the retirees’ objections and confirmed Delphi’s
Modified Chapter 11 Plan. In re Delphi Corp., No. OS44481, 2009 WL 2482146 at Dkt. No. 1 (Bankr.
S.D.N.Y. July 30, 2009).
On August 6, 2009, the retirees sought PBGC’s
consent to intervene in the termination proceedings
in district court. On August 7, 2009, PBGC
voluntarily dismissed the termination suit in district
court. Then, on August 10, 2009, PBGC and Delphi
executed a termination and trusteeship agreement
that terminated the Salaried Plan effective July 31,
2009.
Subsequently, in September 2009, the retirees
filed this lawsuit. After protracted litigation, the
district court granted summary judgment in favor of
PBGC. This appeal followed.

34a
II.
We review a district court’s grant of summary
judgment de novo, “applying the same standards as
the district court.” Morehouse u. Steak N Shake, 938
F.3d 814, 818 (6th Cir. 2019) (quotingF.T.C. v. E.M.A.
Nationwide, Inc., 767 F.3d 611, 629 (6th Cir. 2014)).
“Summary judgment is appropriate if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Id. (internal quotations omitted);
see also Fed. R. Civ. P. 56(a). A material fact is one
that “might affect the outcome of the suit under the
governing law.” Anderson v. Liberty Lobby, Inc., All
U.S. 242, 248 (1986).
Generally, we review the evidence in the light
most favorable to the nonmoving party. Morehouse,
938 F.3d at 818. But, “[wjhere, as here, the parties
filed cross-motions for summary judgment, the court
must evaluate each party’s motion on its own merits,
taking care in each instance to draw all reasonable
inferences against the party whose motion is under
consideration.” EMW Women’s Surgical Ctr., P.S.C. v.
. Beshear, 920 F.3d 421, 425 (6th Cir. 2019) (internal
quotations omitted).
III.
The retirees contend that 29 U.S.C. § 1342(c)
requires a judicial adjudication prior to termination
of a distressed pension plan. They also argue that
their due process rights were violated and that
PBGC’s decision was arbitrary and capricious. We
begin with interpretation of section 1342.

35a
i

A.
Interpretation of 29 U.S.C. § 1342. Section 1342
outlines the procedure for institution of proceedings
by PBGC to terminate a distressed pension plan.
After reviewing the statutory text comprehensively
and applying relevant canons of statutory
interpretation, we conclude that subsection 1342(c)(1)
provides two alternative mechanisms for terminating
a distressed pension plan: (1) by application to a
United States district court for a decree that the plan
must be terminated, or (2) by agreement between
PBGC and the plan administrator.
Here, the parties dispute the appropriate
statutory procedure for termination of a pension plan
by PBGC. The retirees contend that subsection
1342(c) requires that PBGC obtain a judicial decree
before terminating a distressed pension plan. But
PBGC correctly argues that the statutory scheme
provides two procedural alternatives for terminating
a distressed pension plan, including by agreement
between PBGC and the plan administrator.
To resolve this dispute, we begin by examining the
statutory text. “We endeavor to ‘read statutes . . .
with an eye to their straightforward and
commonsense meanings.”’ Bates u. Dura Auto. Sys.,
Inc., 625 F.3d 283, 285 (6th Cir. 2010) (quoting Henry
Ford Health Sys. v. Shalala, 233 F.3d 907, 910 (6th
Cir. 2000)). And we give “terms the ordinary meaning
that they carried when the statute was enacted.”
Norfolk S. Ry. v. Perez, 778 F.3d 507, 512 (6th Cir.
2015). The Supreme Court has called on “judicial
interpreter [s] to consider the entire text, in view of its
structure and of the physical and logical relation of its
many parts.” Hueso u. Barnhart, 948 F.3d 324, 333
(6th Cir. 2020) (quoting Antonin Scalia & Bryan A.

36a
Garner, Reading Law: The Interpretation of Legal
Texts § 24, at p. 167 (2012) and citing Star Athletica,
L.L.C. v. Varsity Brands, Inc., 137 S. Ct. 1002, 1010
(2017)). Lastly, before deferring to an administrative
agency’s statutory interpretation, courts “must first
exhaust the ‘traditional tools’ of statutory
interpretation
and
‘reject
administrative
constructions’ that are contrary to the clear meaning
of the statute.” Arangure v. Whitaker, 911 F.3d 333,
336 (6th Cir. 2018) (quoting Chevron USA, Inc. v. Nat.
Res. Def. Council, Inc., 467 U.S. 837, 843 n.9 (1984)).
Section 1342 has several subsections. Subsection
1342(a) says that PBGC “may institute proceedings
under this section to terminate a plan” when PBGC
determines that certain specified criteria are met. 29
U.S.C. § 1342(a). But the statute does not specify
what type of “proceedings” may be initiated to
terminate a pension plan. At the time the statute was
written, “proceeding” could have had several
meanings, including: “action or course of action [,] . . .
a particular course of action ... [or a] legal action.”
Proceeding, Webster’s New Twentieth Century
Dictionary of the English Language 1434 (2d ed.
1979). Thus, proceedings are not necessarily limited
to a judicial adjudication, but may also contemplate
an administrative proceeding or some other course of
action.
Subsection 1342(b) provides for appointment of a
trustee after initiation of termination proceedings.
Subsection (b)(1) authorizes PBGC to apply to the
United States district court for appointment of a
trustee to administer the plan “pending the issuance
of a decree under subsection (c) ordering the
termination of the plan.” 29 U.S.C. § 1342(b)(1). Even
so, subsection (b)(3) allows PBGC and the plan

37a
administrator to agree “to the appointment of a
trustee without proceeding in accordance with the
requirements of paragraphs [(b)](1) and [(b)](2).” Id. §
1342(b)(3).
Subsection 1342(c) is the primary subsection at
issue here. The title of the subsection, “[adjudication
that plan must be terminated,” may lend some
support to the retirees’ assertion that an adjudication
must occur before a pension plan is terminated. Id. §
1342(c). Still, while subsection titles “are of use [ ]
when they shed light on some ambiguous word or
phrase . . . they cannot undo or limit what the text
makes plain.” Brotherhood of Ry. Trainmen v.
Baltimore & Ohio Ry., 331 U.S. 519, 529 (1947). Thus,
we look to the subsection’s substantive text.
The first sentence of subsection 1342(c)(1) says that
when PBGC commences proceedings under
subsection (a) “it may . . . apply to the appropriate
United States district court for a decree adjudicating
that the plan must be terminated . . . .” 29 U.S.C. §
1342(c)(1) (emphasis added). Similarly, the second
sentence states, “If the trustee appointed under
subsection (b) disagrees with the determination of the
corporation under the preceding sentence he may
intervene in the proceeding relating to the application
for the decree, or make application for such decree
himself.” Id. (emphasis added).
Next, the third sentence says:
Upon granting a decree for which the
corporation or trustee has applied under this
subsection the court shall authorize the
trustee appointed under subsection (b) (or
appoint a trustee if one has not been
appointed under such subsection and

38a
authorize him) to terminate the plan in
accordance with the provisions of this
subtitle.
. Id. This sentence simply states that if a judicial
decree is granted that “the court shall authorize the
trustee ... to terminate the plan in accordance with
the provisions of this subtitle.” Id.
Now, we turn to the main sentence in dispute. In
its entirety, the fourth sentence of subsection (c)(1)
says:
If the corporation and the plan administrator
agree that a plan should be terminated and
agree to the appointment of a trustee without
proceeding
in
accordance
with
the
requirements of this subsection (other than
this sentence) the trustee shall have the
power described in subsection (d)(1) and, in
addition to any other duties imposed on the
trustee under law or by agreement between
the corporation and the plan administrator^
the trustee is subject to the duties described
in subsection (d)(3).
Id. The fourth sentence presents a conditional if-then
proposition. If the first two conditions are met—“the
[PBGC] and the plan administrator agree that a plan
should be terminated and agree to the appointment of
a trustee”—then “the trustee shall have the power
described in subsection (d)(1) and ... is subject to the
duties described in subsection (d)(3).” Id.
But the proper interpretation of part of the second
clause of the fourth sentence—“without proceeding in
accordance with the requirements of this subsection
(other than this sentence)”—is in dispute.

39a
The retirees read the language to mean that PBGC
and the administrator may only agree to appoint a
trustee without proceeding in accordance with the
requirements of subsection (c)(1). In other words, the
only requirements of subsection (c) that are waived
are those that deal with appointment of a trustee.
Thus, the retirees’ position is that the fourth sentence
of subsection (c)(1) only provides an additional
method of appointing a trustee after a judicial decree
is entered but does not eliminate the requirement for
an adjudication.
Alternatively, PBGC interprets the disputed text
to say that if the parties agree to terminate the plan
and agree to the appointment of a trustee, then
without proceeding in accordance with the
requirements of the subsection, including the
requirement of court adjudication, the trustee shall
have the authority described in subsection (d). Put
differently, an agreement between PBGC and the
administrator that a plan should be terminated and
to appoint a trustee obviates all other requirements
found in subsection (c), including any requirement for
an adjudication. Under this interpretation, PBGC
and a plan administrator may agree to appoint a
trustee to terminate a distressed plan without a
judicial decree.
To resolve the dispute, we first look to the plain
text of the relevant subsection. The repeated use of
the permissive verb “may” in subsection (c)(1)—as
opposed to mandatory words like shall1 or must—
1 Of course, depending on usage, “shall” may have severalpermissible meanings. See Scalia & Garner, supra, § 11, at pp.
112-15. Still, “when the word shall can reasonably be read as
mandatory, it ought to be so read.” Id. at 114.

40a
indicates that a- trustee appointed under subsection
(b) is permitted, but not required, to intervene in a
proceeding relating to the application for a decree or
to initiate a proceeding if one has not been initiated.
See Scalia & Garner, supra, § 11, at p. 112
(“Mandatory words impose a duty; permissive words
grant discretion”). Subsection (c)(1) uses no
mandatory language that explicitly requires
adjudication by a court. As a result, the plain text of
subsection (c)(1) permits—but does not require—
court adjudication before termination of a distressed
pension plan.
Next, we consider relevant canons of statutory
interpretation. PBGC argues that the retirees’
interpretation violates the canon against surplusage
because it renders subsection 1342(b)(3) meaningless.
See Scalia & Garner, supra, at § 26, p. 174. Subsection
(b)(3) authorizes PBGC and the plan administrator to
appoint a trustee without proceeding with the
requirements of subsections (b)(1) or (b)(2). While the
retirees’ interpretation of subsection (c)(1) does not
necessarily render subsection (b)(3) superfluous, it
does expose a flaw in their interpretation.
The retirees argue that sentence 4 of subsection
(c)(1) is distinct from subsection (b)(3). As the retirees
read the statute, sentence 4 of subsection (c)(1)
addresses a unique circumstance where the trustee
alone has sought to execute termination and PBGC
has not sought a decree under sentence 1 of
subsection (c)(1). Thus, as the retirees read sentence
4 of subsection (c)(1), it is only operative if the trustee
alone seeks termination under sentence 2 of
subsection (c)(1) and the court issues a decree to
terminate the plan under sentence 3 of subsection
(c)(1). If that happens and the conditions of the if-then

41a
clause are met,, then the trustee has the powers
outlined in subsection (d)(1) and is subject to the
duties in (d)(3). In other words, the retirees posit that
subsection (b)(3) allows PBGC and the administrator
to agree on the appointment of a trustee during the
period right after the initiation of termination
proceedings under subsection (a) but before a decree
for termination is entered.
The problem with the retirees’ argument,
however, is that the plain language of sentence 4 is
not limited to a situation in which the PBGC and
administrator agree to the appointment of a trustee
during the period after initiation of termination
proceedings but before a decree for termination is
entered. Instead, sentence 4 allows the parties to
proceed without complying with the requirements in
all other sentences of subsection (c)(1) unequivocally.
Thus, by its own language, sentence 4 allows the
parties to terminate a plan without a court
adjudication so long as the parties agree that a plan
should be terminated and agree to appointment of a
trustee.
Moreover, we consider the statutory language
comprehensively and in context. Under the retirees’
interpretation, the second condition of the fourth
sentence’s if-then proposition is that PBGC and the
administrator must “agree to the appointment of a
trustee without proceeding in accordance with the
requirements of this subsection.” 29 U.S.C. §
1342(c)(1). But that is illogical because subsection (c)
only mentions appointment of a trustee once;
providing for appointment of a trustee by the court if
a trustee was not previously appointed under
subsection (b). See id. And subsection (b) primarily
provides the procedures for appointment of a trustee

42a
under the statute, not subsection (c). Thus, it is
unclear how the parties can “agree to the
appointment of a trustee without proceeding in
accordance with the requirements of [subsection (c)],”
when subsection (c) contains no requirements dealing
with the appointment of a trustee, except for a
passing phrase allowing the court to appoint a trustee
if one has not already been appointed under
subsection (b).
Lastly, our interpretation is also supported by
persuasive authority from other circuits. In Jones &
Laughlin Hourly Pension Plan v. LTV Corporation,
the United States Court of Appeals for the Second
Circuit held that “[t]he fourth sentence of subsection
1342(c) provides that where, as here, PBGC and the
plan administrator agree to terminate a plan, PBGC
need not comply with the other requirements of ‘this
subsection.’” 824 F.2d 197, 200 (2d Cir. 1987).
“Congress, therefore, expressly dispensed with the
necessity of a court adjudication in these cases.” Id.
Thus, the Second Circuit has held that Congress
expressly dispensed with the necessity of a court
adjudication where the PBGC and plan administrator
agree to terminate a plan.
The retirees’ contention that Jones & Laughlin
conflicts with a Seventh Circuit decision, In re UAL
Corporation, 468 F.3d 444 (7th Cir. 2006), is
unavailing. The Seventh Circuit stated that
“[njothing in 29 U.S.C. § 1342(c), which describes the
judicial function after the PBGC files an action
seeking termination, suggests that the court must
defer to the agency’s view.” Id. at 450. But Jones &
Laughlin and In re UAL Corporation addressed two
distinct legal issues. In Jones & Laughlin, the Second
Circuit addressed whether subsection 1342(c)

43a
authorized termination of a pension plan by
agreement
between
and
the
plan
PBGC
administrator. 824 F.2d at 200. In contrast, in In re
UAL Corporation, the Seventh Circuit considered the
appropriate standard of review in a suit where a plan
administrator disagrees with the termination and
PBGC seeks a court order to terminate a plan. See 468
F.3d at 447-50. Thus, to the extent that the Seventh
Circuit made pronouncements in In re UAL
Corporation that support the retirees’ interpretation,
those pronouncements would constitute dicta because
the court did not rest its ultimate judgment on
interpretation of 29 U.S.C. § 1342(c). See Wright v.
Spaulding, 939 F.3d 695, 700-02 (6th Cir. 2019)
(discussing principles to determine if a court’s
discussion constitutes a holding); see also United
States v. Swanson, 341 F.3d 524, 530 (6th Cir. 2003)
(explaining that, generally, dictum is anything “not
necessary to the determination of the issue on
appeal”).
Even so, the retirees also argue that Jones &
Laughlin is unpersuasive because it utilized outdated
notions of statutory interpretation and relied on an
obsolete understanding of deference to administrative
agencies’ statutory interpretations.
First, the retirees’ assertion that Jones &
Laughlin should not be followed because the Second
Circuit impermissibly added words to subsection
1342(c) is unconvincing. The Jones & Laughlin court
did not add any words to the statute when
interpreting the relevant provision in subsection
1342(c)(1).2
2 After determining that subsection 1342(c) dispensed with the
necessity of court adjudication, the Jones & Laughlin court said,

44a
The retirees’ second argument—that the Jones &
Laughlin court impermissibly relied on outdated
notions of the deference owed to federal agencies—is
more persuasive but still misses the mark. The
Second Circuit based its interpretation on “the
deference owed to the PBGC as [a] federal agency”
and the court’s own interpretation of the statutory
language. See 824 F.2d at 200 n.3. Thus, the Second
Circuit’s statutory interpretation is still entitled to
consideration as persuasive authority for this court
even if notions of deference to administrative agency
interpretations have changed since Jones & Laughlin
was decided.
Lastly, decisions in several federal circuits,
including a published opinion in this circuit, have
acknowledged- terminations of distressed pension
plans by agreement between PBGC and the plan
administrator pursuant to 29 U.S.C. § 1342(c)(1). See
Pension Benefit Guar. Corp. v. Alloytek, Inc., 924 F.2d
620, 624 (6th Cir. 1991) (citing 29 U.S.C. § 1342(c)(1)
and acknowledging that “the parties agreed to a
consent order which incorporated their agreement
and terminated the Plan, established a termination
date and provided for the appointment of a trustee”);
see also, e.g., Allied Pilots Ass’n v. Pension Benefit

“The remainder of the fourth sentence of subsection 1342(c)
supports this interpretation. It grants to the trustee (PBGC)
‘without proceeding in accordance with the requirements of
this . . . the power described in subsection (d)(1) of this section
and [subjects the trustee] ... to the duties described in
subsection (d)(3).’” 824 F.2d at 200 (citing 29 U.S.C. § 1342)
(alterations in original). Thus, the addition with which the
retirees take: issue appears to have had no effect on the court’s
interpretation of whether subsection 1342(c) authorizes
termination by agreement without court adjudication.

45a
Guar. Corp., 334
F.3d 93, 97 (D.C. Cir. 2003)
(recognizing that PBGC may seek termination
through district court enforcement or voluntary
settlement); In re Syntex Fabrics, Inc. Pension Plan,
698 F.2d 199, 201 (3d Cir. 1983) (“Despite the socalled involuntary
nature of a section
1342
proceeding, PBGC and the plan administrator can
still agree to terminate the plan and appoint a trustee
without resort tothe court.”). Of course, these
decisions did not
directly consider the proper
interpretation of subsection 1342(c). Still, they
provide strong persuasive authority that several
circuits, including our own, have at least recognized a
procedure where distressed pension plans may be
terminated by agreement under subsection 1342(c)
without court adjudication. Moreover, the retirees
have not cited, nor are we aware of, any federal
authority accepting their proposed interpretation,
that termination of a distressed pension plan must be
accomplished through court adjudication.
In sum, the most appropriate interpretation of
subsection 1342(c)(1) is that it provides two
alternative mechanisms for terminating a distressed
^pension plan. First, the subsection uses permissive
language when discussing an in-court adjudication
before terminating a pension plan. Second, subsection
(c)(1) is not limited to a situation after initiation of
termination proceedings under subsection (a) but
before a decree for termination is entered. Third, the
retirees’ interpretation:—that if the parties agree that
a plan should be terminated they may appoint a
trustee without proceeding in accordance with the
requirements of subsection (c)(1)—is illogical because
the only provision of subsection (c)(1) that deals with
the appointment of a trustee is one that allows for

46a
appointment of a trustee by the court if one was not
appointed pursuant to the requirements of subsection
(b). Lastly, the only circuit to directly interpret the
statutory language at issue here reached the same
conclusion, and the weight of federal authority
acknowledges a procedure where PBGC and the plan
administrator may terminate a pension plan by
agreement without resort to the courts. As a result,
we hold that 29 U.S.C. § 1342(c)(1) allows a plan
administrator and the PBGC to terminate a
distressed pension plan by agreement, without court
adjudication.
B.
Procedural Due Process. The retirees also claim
that their due process rights were violated because
they were not afforded a hearing prior to plan
termination. We conclude, however, that the retirees
do not have a property interest in the full amount of
their vested pension benefits because the Salaried
Plan document provides that only funded benefits at
the time of plan termination are nonforfeitable. And,
since the retirees do not have a protected property
interest in the full amount of their vested, but
unfunded, pension benefits, no due process violation
has occurred.
The due process analysis requires two inquiries.
Leary v. Daeschner, 228 F.3d 729, 741 (6th Cir. 2000).
First, we determine whether the retirees have a
protected property interest in their vested—but
unfunded—pension benefits. Id. Second, if they do,
then we consider whether PBGC’s termination of the
Salaried Plan resulted in a deprivation of property
without adequate procedural safeguards. Id. at 742.

47a
To have a property interest in their vested pension
benefits, the retirees “clearly must have more than an
abstract need or desire for [them] . . . more than a
unilateral expectation of [them] . . . instead, [they]
must instead have a legitimate claim of entitlement
to [them].” See Bd. of Regents of State Colls, v. Roth,

408 U.S.

564,

577 (1972).

Still, “[property

interests . . . are not created by the Constitution.” Id.
“Rather [property interests] are created and their
dimensions are defined by existing rules or
understandings that stem from an independent
source such as state law—rules or understandings
that secure certain benefits and that support claims
of entitlement to those benefits.” Id.
Thus, to determine if the retirees have a legitimate
claim of entitlement to the entire amount of their
vested pension benefits, we must look to the source
that creates the purported property interest. Here,
the source of the purported property interest is a
private contract between the retirees and Delphi. The
Salaried Plan document provides that, in the event of
plan termination, the “right of all affected employees
to benefits accrued to the date of such termination . . .
to the extent funded as of such date, is nonforfeitable.”
In other words, the document provides that funded
benefits accrued up to the date of plan termination
are nonforfeitable.
What about unfunded benefits? The source of the
purported property interest—the Salaried Plan
document—contains a provision that provides that
benefits that are funded at the time of plan
termination are nonforfeitable. By necessary
implication, unfunded benefits, regardless of whether
they are vested, are forfeitable if a plan is terminated.
As a result, the retirees do not have a legitimate

48a
entitlement to their vested pension benefits that were
unfunded at the time of plan termination based on the
plain language in the Salaried Plan document.
The retirees’ arguments to the contrary are
unavailing. First, the retirees contend that this
court’s decision in Duncan v. Muzyn, 833 F.3d 567
(6th Cir. 2016), stands for the proposition that
“whether a benefit is constitutionally protected” turns
on “whether it has vested.” In Duncan, we addressed
whether the Tennessee Valley Authority Retirement
System (“TVARS”) board violated the Takings Clause
when it eliminated cost-of-living adjustments for
TVARS-managed pension plans. 833 F.3d at 570. We
concluded that while “plaintiffs’ claim [was] framed as
a Takings claim, the analysis borrow[ed] principles
from the Contract Clause context.” Id. at 583.
Additionally, we recognized that “[w]here a public
contract is alleged to have been created by statute,
however, a plaintiff may prove a contractual
relationship only by showing that the legislature has
unmistakably intended to create a binding contract
right.” Id. at 583-84. As a result, we held that the
plaintiffs were not deprived of a property right
because the COLAs were not vested, and the plaintiffs
had failed to show that TVARS unmistakably
intended to create a binding contract right. Id. at 584.
Contrary to the retirees’ assertion, Duncan is not
controlling here. First, Duncan did not explicitly hold
that plan beneficiaries always have a property
interest in vested pension benefits. See id. at 583-84.
Duncan addressed different legal issues than those
raised in this case. And the purported property
interest in this case arises from a private contract, not
a public contract. See id. As such, the retirees’
reliance on Duncan is misplaced.

49a
Second, the retirees argue that PBGC’s
interpretation of the Salaried Plan document
provision above would violate ERISA’s anti-cutback
rule. The anti-cutback rule provides that “[t]he
accrued benefit of a participant under a plan may not
be decreased by an amendment of the plan, other than
an amendment described in section 1082(d)(2) or 1441
of this title.” 29 U.S.C. § 1054(g)(1). But here, there
was a termination of the Salaried Plan, not an
amendment. For this reason, it does not appear that
the Salaried Plan document provision, which deals
only with termination, violates the anti-cutback rule.
Third, the retirees contend that “whether the
Retirees have a protected property interest in the full
measure of their vested pension benefits cannot turn
on the assumed legality of the challenged action (here,
the Plan’s termination).” But that argument conflates
two distinct issues. The retirees contend that the
termination of the plan by agreement between the
PBGC and plan administrator was illegal because it
did not comport with the requirements of 29 U.S.C. §
1342(c). Of course, if the retirees are correct, the
action taken by PBGC was illegal and we need not
reach the question of whether the retirees have a
property interest in the entirety of their vested
benefits.
But, if the plan termination by agreement was
legal, the relevant question here asks whether, based
on the provision in the Salaried Plan document, the
retirees have a legitimate claim of entitlement to the
entire amount of their vested benefits, no matter how
the plan was terminated. The answer to that question
is no because the retirees only have a legitimate claim
of entitlement to their funded benefits at the time of
termination pursuant to the Salaried Plan document.

50a
Thus, the second question, whether the retirees have
a property interest in the entire amount of their
vested pension benefits is considered only if the first
question, whether PBGC legally terminated the
Salaried Plan, is answered in the affirmative.
In sum, the Salaried Plan document—the source
of the retirees’ purported property interest—provides
that only accrued benefits that are funded as of the
date of termination are nonforfeitable. For this
reason, the retirees only have a legitimate claim of
entitlement to accrued benefits funded at the date of
termination. Thus, we hold that the retirees do not
have a property interest in the entire amount of their
vested, but unfunded, pension benefits because the
private contract creating entitlement to those benefits
provides that unfunded benefits at the time of plan
termination are forfeitable.
C.
Arbitrary and Capricious. The retirees have not
demonstrated that PBGC’s decision to terminate the
Salaried Plan was arbitrary and capricious. The
retirees cite evidence to support their position that
the plan was not sufficiently underfunded, that GM
was willing to consider assuming the Salaried Plan,
and that PBGC failed to push back against the Auto
Taskforce. Still, there is sufficient countervailing
evidence to support PBGC’s decision to terminate the
Salaried Plan under the criteria found in 29 U.S.C. §
1342(a).
PBGC’s final determination is entitled to
deference and “will be upheld unless it is shown to be
‘arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.’” Pension
:Benefit Guar. Corp. v. Ky. Bancshares, Inc., 597 F.

51a
App’x 841, 842-43 (6th Cir. 2015) (quoting 5 U.S.C. §
706(2)(A) and citing Pension Benefit Guar. Corp. u.
LTV Corp., 496 U.S. 633 (1990)). PBGC’s decision will
be upheld unless we find that the decision:
has relied on factors which Congress had not
intended it to consider, entirely failed to
consider an important aspect of the problem,
offered an explanation for its decision that
runs counter to the evidence before the
agency, or is so implausible that it could not
be ascribed to a difference in view or the
product of agency expertise.
Nat’l Ass’n of Home Builders v. Defs. of Wildlife, 551
U.S. 644, 658 (2007) (quoting Motor Vehicle Mfrs.
Ass’n of U.S., Inc. v. State Farm Mut. Auto. Ins. Co.,
463 U.S. 29, 43 (1983)). As a reviewing court, we are
not at liberty to substitute our judgment for the
judgment of the agency. Motor Vehicle Mfrs. Ass’n.,
463 U.S. at 43.
Congress authorized PBGC to initiate termination
proceedings when it determines that:
(1) the plan has not met the minimum funding
standard required under section 412 of Title
26, or has been notified by the Secretary of the
Treasury that a notice of deficiency under
section 6212 of Title 26 has been mailed with
respect to the tax imposed under section
4971(a) of Title 26, (2) the plan will be unable
to-pay benefits when due, (3) the reportable
event described in section 1343(c)(7) of this
title has occurred, or (4) the possible long-run
loss of the corporation with respect to the plan
may reasonably be expected to increase
unreasonably if the plan is not terminated.

52a
29 U.S.C. § 1342(a). And ERISA states three
objectives that PBGC must carry out:
(1) to encourage the continuation and
maintenance of voluntary private pension
plans for the benefit of their participants, (2)
to provide for the timely and uninterrupted
payment of pension benefits to participants
and beneficiaries under plans to which this
subchapter applies, and (3) to maintain
premiums established by the corporation
under section 1306 of this title at the lowest
level consistent with carrying out its
obligations under this subchapter.
Id. § 1302(a).
The retirees advance several arguments in
support of their contention that PBGC’s decision to
terminate the Salaried Plan was arbitrary and
capricious.
First, the retirees contend that GM was willing to
consider reassuming the Salaried Plan during its
negotiations with the government. And, they argue
that PBGC believed that assumption of the Salaried
Plan by GM was a viable option until PBGC folded
under pressure by the Treasury Department.
But, even when viewing the evidence in the light
most favorable to the retirees and drawing all
reasonable inferences in their favor, there is ample
countervailing evidence to-demonstrate that GM was
unwilling to assume the Salaried Plan’s liabilities.
Even if GM was willing to consider assuming the
Salaried Plan, and even if PBGC was initially in favor
of GM’s assumption of- the plan, GM never
demonstrated an affirmative willingness to assume
the Salaried Plan. No doubt, GM considered assuming

53a
the Salaried Plan as part of the broader negotiations
between GM and the government. And PBGC initially
listed assumption of the Salaried Plan by GM as an
alternative to plan termination. But the retirees
acknowledge that GM refused to assume the Salaried
Plan and there is no evidence demonstrating that
GM’s assumption of the plan was a viable alternative
to termination. Thus, PBGC’s action cannot be found
to be arbitrary and capricious based on its failure to
convince GM to assume the Salaried Plan when GM
never expressed more than willingness to consider
accepting the plan’s liabilities.
Moreover, the retirees’ main contention seems to
be that PBGC should have exerted more pressure on
the Treasury Department to ensure that GM would
assume the Salaried Plan. But that argument is
flawed for several reasons.
First, the retirees’ main grievance on this point
seems to be with Treasury’s decision not to bail out
the Salaried Plan. And, as PBGC notes, the district
court dismissed the claims against the Treasury
defendants early in the litigation and the retirees
chose not to appeal that dismissal. Still, on this point,
it appears that the retirees’ main complaint is that
Treasury should have bailed out the Salaried Plan,
not that PBGC’s decision to terminate that plan was
arbitrary and capricious. Ultimately, PBGC’s action
cannot be found to be arbitrary and capricious
because of a failure of the Treasury DepartmentSecond, PBGC’s decision making process cannot
be viewed in a vacuum. The retirees argue that
PBGC’s failure to exert pressure on Treasury
indicates that the decision to terminate that Salaried
Plan was arbitrary and capricious. But there were
many competing interests that PBGC had to weigh in

54a
deciding to terminate the Salaried Plan. Plus, that
decision was made in the context of the government’s
urgent attempt to save GM and the automotive
industry. PBGC was forced to consider other Delphi
pension plans, including the Hourly Plan, which was
assumed by GM. Additionally, PBGC had to consider
that a delayed termination decision might affect the
GM negotiations and could endanger PBGC’s ability
to recover funds from statutory liens that had been
put into place. Even if PBGC failed to exert pressure
on Treasury to bailout the Salaried Plan, that cannot
make their decision to terminate the Salaried Plan
arbitrary and capricious under the circumstances.
Third, there was sufficient evidence to justify
termination of the Salaried Plan. The retirees contend
that evidence demonstrated the Salaried Plan’s
funding level was 85.62%. But, even if that was true,
PBGC points out that percentage of underfunding is
not a factor to be considered under 29 U.S.C. §
1342(a). Plus, countervailing evidence demonstrates
that the Salaried Plan was severely underfunded. For
instance, the record indicates that the Salaried Plan
was only funded 46.1% on a termination basis. And,
even if the Salaried Plan was not underfunded, it is
undisputed that Delphi had missed minimum funding
contributions, which justified plan termination under
§ 1342(a)(1). As a result, subsection 1342(a)’s criteria
for termination were satisfied, justifying PBGC’s
decision to terminate the Salaried Plan.
Lastly, the retirees note that between 2005 and
2009, PBGC worked with thirteen auto-parts
suppliers that emerged from bankruptcy without
terminating the pension plans sponsored by those
companies. They say that lends support to their
arbitrary and capricious theory. Not so. First, the

55a
evidence demonstrates that PBGC explored
alternatives to plan termination and participated in
Delphi’s bankruptcy negotiations for years before
making its final decision to terminate the Salaried
Plan. Second, the fact that PBGC negotiated with
other companies to save their pension plans from
termination is not evidence that the decision it made
in this instance was arbitrary and capricious.
At bottom, it is inappropriate for this court to play
armchair administrative agency with the benefit of
hindsight. Even if we would have reached a different
conclusion in the first instance, PBGC’s decision to
terminate the Salaried Plan was supported by
sufficient evidence. Therefore, we hold that PBGC’s
action was not arbitrary and capricious.
IV.
In sum, the retirees have not raised any argument
warranting reversal. First, 29 U.S.C. § 1342(c)(1)
provides two mechanisms for termination of a
distressed pension plan—including termination by
agreement between a plan administrator and the
PBGC. Second, the retirees do not have a property
interest in their vested, but unfunded, pension
benefits because the private contract creating those
benefits provides that only funded benefits at the time
of termination are nonforfeitable. Third, PBGC’s
decision to terminate the Salaried Plan was not
arbitrary and capricious because there is ample
evidence to support PBGC’s decision. As a result, the
district court’s judgment is AFFIRMED.

r

56a
APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Dennis Black, et

Case No. 09-13616
[FILED MAR. 22, 2019]

AL.,

Plaintiffs,

Senior U.S. District
Judge Arthur J. Tarnow

v.

U.S. Magistrate Judge
Mona K. Majzoub

Pension Benefit
Guaran[y] Corp.,
Defendant.

/

Order Denying Plaintiffs’ Motion for
Summary Judgment [305,308]; and Granting
Defendant’s Motion for Summary Judgment
[304]
Plaintiffs, beneficiaries of Delphi Corporation’s
Retirement Program for Salaried Employees
(“Salaried Plan”), commenced this ERISA action on
September 14, 2009 after Defendant Pension Benefit
Guarantee Corporation (“PBGC”) and Delphi entered
into an agreement to terminate the Salaried Plan.
Before the Court are the parties’ cross-motions for
summary judgment filed on September 21, 2018. For
the reasons explained below, the Court DENIES
Plaintiffs’ Motion for Summary Judgment [305, 308]
and GRANTS Defendant’s Motion for Summary
Judgment [304].

57a
FACTUAL BACKGROUND
I. Delphi Pension Plans
Delphi Corporation (“Delphi”), formerly one of the
world’s largest automotive parts’ suppliers, was
originally established as an integrated division of
General Motors (“GM”). In 1999, Delphi spun off of
GM and was re-established as an independent
company. In re Delphi Corp. Sec., Derivative &
“ERISA”Litig., 248 F.R.D. 483, 487 (E.D. Mich. 2008).
Delphi had two defined-benefit pension plans: the
Retirement Program for Salaried Employees
(“Salaried Plan”); and the Hourly-Rate Employees
Pension Plan (“Hourly Plan”). The Salaried Plan
covered Delphi’s non-unionized workforce, while the
Hourly Plan covered its unionized workforce.1 The
Salaried Plan—the subject of this litigation—had
over 20,000 participants, including Plaintiffs Dennis
Black, Chuck Cunningham, and Ken Hollis.
II. PBGC
The PBGC is the agency responsible for
administering pension insurance pursuant to Title IV
of ERISA. “Before ERISA, lack of oversight and legal
standards often left pension plans without enough
money, and employees who counted on those funds
with nothing for retirement.” Pension Benefit Guar.
Corp. v. Findlay Indus., Inc., et al., 902 F.3d 597, 601
1 At the time of the spin-off, unionized employees, represented
primarily by the United Automobile, Aerospace and Agricultural
Implement Workers of America (“UAW”), entered into an
agreement with GM according to which GM agreed to “top-up”
or increase benefit levels in the event that Delphi was unable to
fund its pensions. No similar agreement was entered into on
behalf of the Salaried Plan employees.

58a
(6th Cir. 2018) (internal citations omitted). In an
effort to solve this problem, Congress established the
PBGC to provide insurance for workers promised a
defined pension benefit in the event that the sponsor
terminated the retirement plan. Nachman Corp. u.
Pension Ben. Guar. Corp., 446 U.S. 359, 375 (1980).
The very purpose of the PBGC is to ensure that
retirees receive their benefits notwithstanding their
former employers’ financial turmoil.
III. Delphi Bankruptcy
In the years after its spin-off from GM, Delphi
struggled to maintain financial independence. In
October 2005, Delphi was forced to file for Chapter 11
bankruptcy. In re Delphi Corp., 05-44481 (S.D.N.Y.
Oct. 8, 2005) (“Delphi Bankruptcy Action”).
PBGC was actively involved in Delphi’s
bankruptcy proceedings to try to mitigate risk to the
insurance program. Early on in the bankruptcy,
Delphi remained committed to funding the pension
plans. With the state of the economy in 2008,
however, upholding this commitment no longer
seemed realistic for Delphi. By 2009, after Delphi’s
first reorganization plan had failed, there appeared to
be only two options with respect to the pension plans
given their untenable costs to Delphi: either GM
would absorb Delphi’s pension liabilities; or PBGC
would terminate the plans. Both PBGC and Delphi
advocated for GM assumption.
IV. GM Bankruptcy
In -February 2009, President Obama established
an Auto Task Force responsible for restructuring GM.
The Auto Task Force and Treasury had “significant
leverage and influence on GM’s decisions . . . .”
Special Inspector General for the Troubled

'1

59a
Asset Relief Program, Treasury’s Role in the
Decision for GM to Provide Pension Payments to
Delphi Employees 3 (Aug. 15, 2013) (“SIGTARP
Report”). The Auto Task Force worked “independent
of GM to prepare for a GM bankruptcy.” Id.
In April 2009, the Auto Task Force raised the
prospect of an expedited GM bankruptcy. Ultimately,
the Treasury agreed to give $30 million in Trouble
Asset Relief Program (“TARP”) funds to GM,
conditioned on a 40-day “quick-rinse bankruptcy.”
The Auto Task Force believed that this was “the best
way to save the American automobile industry,
concerned that GM could not survive a lengthy
bankruptcy and GM’s failure would have broader
systemic consequences.” Id. at 27.
The bankruptcy process' allowed New GM to
“cherry-pick” the liabilities that a “commercial buyer
would want and New GM would need.” Id. at 28. GM
knew that it needed the UAW on board with any
bankruptcy plan it would adopt, given that the UAW
represented 99% of its unionized workforce and could
stop production with a strike. In late May 2009, GM’s
CEO met with the UAW President and the Auto Task
Force to negotiate New GM’s assumption of liabilities.
The parties reached a collective bargaining
agreement which included GM’s assumption of the
liabilities to top-up the Hourly Plan pensions. Id. at
33.
On June 1, 2009, GM filed for bankruptcy. As part
of the bankruptcy proceedings, GM sold all of its
assets to New GM, an entity formed on July 10, 2009.

60a
V. Negotiations Between Delphi, GM, PBGC,
and the Treasury
Although Delphi and PBGC worked together to
avoid termination of the pension plans, eventually,
Delphi proved incapable of sustaining the financial
burdens of plan continuance. On April 21, 2009,
PBGC’s Trusteeship Working Group (“TWG”)
determined that both plans should be terminated in
order to avoid any unreasonable increase in the
liability of the insurance fund. Specifically, TWG
authorized termination of the Salaried Plan under §
4042(a)(1) because the Plan had missed at least one
required minimum-funding contribution. TWG
further authorized termination of both the Salaried
and Hourly Plans pursuant to §§ 4042(a)(2) and
(a)(4)(c) and appointed PBGC as statutory trustee.
Just weeks after TWG had authorized termination
of both the Salaried and Hourly Plans, PBGC and
Delphi entered into a facilitated mediation with the
Treasury, Auto Task Force, and GM. Through
mediation, the parties came to a global resolution
which included saving the Hourly Plan, but
terminating the Salaried Plan. According to this
proposed solution, PBGC would terminate the
Salaried Plan and release its remaining liens and
claims on Delphi assets in exchange for a negotiated
settlement, and GM would assume the Hourly Plan.
On June 1, 2009, Delphi moved to modify its First
Amended Plan of Reorganization in the Delphi
Bankruptcy Action to reflect the agreement reached
during mediation. With respect to the pension plan
liabilities, the proposed modification provided:
Upon consummation of the Modified Plan, the
remaining assets and. liabilities of Delphi’s

61a
hourly pension plan will no longer be the
responsibility of the Debtors and will be
addressed by GM. The Debtors expect that the
salaried pension and certain subsidiary
pension plans
may be involuntarily
terminated by the PBGC, which will receive a
negotiated settlement, including an allowed
unsecured prepetition claim.
In re Delphi, Dkt. #16646 at 10.
VI. PBGC’s Assumption of the Delphi Pension
Plans
On July 22, 2009, PBGC publicly announced its
assumption of the Delphi pension plans. The Notice of
Determination (“NOD”) provided, in part:
The Pension Benefit Guaranty Corporation
today announced it will assume responsibility
for the pension plans of 70,000 workers and
retirees of Delphi Corp., the nation’s largest
producer of automotive parts. The PBGC will
initiate action to become trustee of the plans,
a process that could last up to several months.
The PBGC is stepping in to protect the Delphi
pensions because the restructuring Delphi
cannot afford to maintain its pension plans
and General Motors has stated it will not
assume them. Delphi was spun off from GM
in 1999.
Since Delphi entered bankruptcy protection
in 2005, the PBGC has worked intensively
with Delphi, GM and other stakeholders to
keep the pension plans ongoing. In September
2008 GM took on approximately $2.5 billion
in liabilities of the Delphi Hourly Plan, and

62a
until its recent restructuring in bankruptcy,
GM had been expected to assume the entire
obligation for the hourly plan.
Delphi sponsors six defined benefit plans for
its workers. The Delphi Hourly Pension Plan
covers 47,000 participants and has about $3.7
billion in assets and more than $8 billion in
liabilities, according to PBGC estimates. The
PBGC expects to be responsible for about $4
billion of the plan’s shortfall of nearly $4.4
billion.
The Delphi Salaried Pension Plan covers
about 20,000 workers and retirees, and has
$2.4 billion in assets and liabilities of $5
billion, according to PBGC estimates. The
PBGC expects to be responsible for about $2.2
billion of its estimated $2.6 billion in
underfunding ....
The PBGC will pay pension benefits up to the
limits set by law ....
Press Release, PBGC, PBGC to Assume Delphi
Pension Plans (Jul. 22, 2009), available at
https://www.pbgc.gov/news/press/releases/pr09-48.
VII. Bankruptcy Court Approval of Delphi’s
Modified Plan of Reorganization
On July 30, 2009, following a hearing, the U.S.
Bankruptcy Court for the Southern District of New
York approved Delphi’s Modified Plan of
Reorganization over the objections of Plaintiffs Black
and Cunningham. In re Delphi, Dkt. #18707. With
respect to the PBGC settlement, the Court explained:
The Debtors have demonstrated good,
sufficient, and sound business purposes and

63a
justification for entering into the DelphiPBGC Settlement Agreement, which was
executed by Delphi and the PBGC on July 21,
2009. The PBGC Settlement Agreement was
filed with the Bankruptcy Court on July 21,
2009 (Docket No. 18559).
The record reflects that the Debtors would be
unable to reorganize under the Modified Plan
so long as the Debtors’ liability under the
Pension Plans covered by the Delphi-PBGC
Settlement Agreement exists. The record also
reflects, for purposes stated by the Court in its
bench ruling at the Final Modification
Hearing, that clear grounds exist under
Section 4042 of ERISA, 29 U.S.C. § 1342, for
the
PBGC
to
initiate
involuntary
terminations of the Pension Plans, for the
Debtors to enter into termination and
trusteeship agreements with the PBGC, and
that the PBGC has determined to seek
involuntary terminations to reduce the
PBGC’s risk of loss of recovery relating to own
exposure under the Pension Plans.
The consideration provided to the Debtors
under
the
Delphi-PBGC
Settlement
Agreement is fair and reasonable, and is in
the best interests of the estate, in light of the
potential amount of a PBGC claim arising out
of plan termination and the need to obtain
releases from the PBGC to effectuate the sale
pursuant to this Modified Plan and under the
MDA Documents.
Id. at 38-39.

64a
The Court further explained:
Section 4042 of ERISA, 29 U.S.C. § 1342,
authorizes PBGC to seek termination of a
pension plan upon making certain findings
notwithstanding the provisions of a collective
bargaining agreement and further permits
the PBGC and the plan administrator to
agree to termination of a plan without an
adjudication. Section 4041(a)(3) of ERISA, 29
U.S.C. § 1341(a)(3). Upon the effectiveness of
the Delphi-PBGC Settlement Agreement, all
liabilities relating to unpaid contributions to
the Pension Plans shall be released or
discharged as set forth therein ....
Nothing in this order prohibits employees or
unions adversely affected by any plan
termination from (a) Seeking to intervene in
any district court action filed by the PBGC
under section 4042 of ERISA, 29 U.S.C. §
1342, to terminate the plans or (b) pursuing
any independent action against the PBGC
regarding the termination of the plan under
section 4003(f) of ERISA, 29 U.S.C. § 1303(f).
Id. at 81-82.
VIII. PBGC Commences an Action in the U.S.
District Court for the Eastern District of
Michigan
On July 21, 2009, PBGC made the decision to
terminate the Salaried Plan. Authorization for this
decision, and the reasons supporting it, came from the
April 21, 2009 TWG recommendation. Concurrent
with its assumption of the pension plans, PBGC
commenced an action in this Court pursuant to 29
U.S.C. §§ 1342 and 1348(a), “seeking an order (a)

65a
terminating the Delphi Retirement Program for
Salaried Employees (the “Delphi Salaried Plan”); (b)
appointing PBGC as statutory trustee of the Delphi
Salaried Plan; [and] (c) establishing July 22, 2009 as
the termination date of the Delphi Salaried Plan . . . .”
PBGC v. Delphi Corp., 09-cv-12876 (E.D. Mich. 2009).
On August 6, 2009, Plaintiffs asked PBGC for its
consent to intervene in the action. But, before
Plaintiffs could file their motion to intervene, PBGC
filed a notice of voluntary dismissal. Id. at Dkt. #5.
The case was closed on August 10, 2009.
IX. Salaried Plan Termination Agreement
On August 10, 2009, PBGC and Delphi executed an
Agreement for Appointment of Trustee and
Termination of Plan (“Termination Agreement”),
effective July 31, 2009. The Termination Agreement
set forth the following reasons for termination of the
Salaried Plan:
PBGC has issued to the Company a Notice of
Determination under 29 U.S.C. § 1342(a)(1),
(2) and (4) that the Plan has not met the
minimum funding standard required under
section 412 of the Internal Revenue Code, the
Plan will be unable to pay benefits when due,
PBGC’s possible long-run loss with respect to
the Plan may reasonably be expected to
increase unreasonably if the Plan is not
terminated, and that the Plan should be
terminated under 29 U.S.C. § 1342(c).
Def.’s Mot. Ex. 5. The effective termination of the
Salaried Plan prompted the filing of this lawsuit.

66a
Procedural History
On September 14, 2009, Plaintiffs Dennis Black,
Charles Cunningham, Kenneth Hollis, and the Delphi
Salaried Retiree Association commenced this action
against PBGC alleging violations of ERISA. On
November 5, 2009, Plaintiffs filed an Amended
Complaint [10] naming the U.S. Treasury, the Auto
Task Force, Timothy Geithner, Steven Rattner, Ron
Bloom, Does 1-50 (hereinafter referred to collective as
“Treasury Defendants”), and GM2 as Defendants, and
adding due process and equal protection claims.
Plaintiffs filed a Second Amended Complaint
(“SAC”) [145] on August 26, 2010. The SAC sets forth
the following claims against PBGC: Failure to Comply
with ERISA’s Requirements Regarding the
Adjudication of Plan Terminations (Count I); Failure
to Comply with ERISA’s Requirement that Any
Summary Termination Agreement Be with a Plan
Administrator Properly Acting in that Capacity
(Count II); Violation of Due Process (Count III); and
Plan Termination in Violation of ERISA (Count IV).
The SAC also alleges an Equal Protection claim
(Count V) against Treasury Defendants.
Treasury Defendants filed a Motion to Dismiss
Count V [164]. On September 2, 2011, the Court
granted the Motion. Dkt. #192. What followed was a
seven-year discovery battle between Plaintiffs and
remaining Defendant, PBGC.
Before the Court is PBGC’s Motion for Summary
Judgment [304] and Plaintiffs’ Motion for Summary
Judgment [305, 308], filed on September 21, 2018.
2 Plaintiffs voluntarily dismissed GM from this action on March
4, 2010. Dkt. #125.

67a
The motions are fully briefed. The Court held a
hearing on the motions on March 6, 2019.
Legal Standard
Summary judgment is appropriate “if the
pleadings, depositions, answers to interrogatories,
and admissions on file, together with the affidavits, if
any, show that there is no genuine issue as to any
material fact and that the moving party is entitled to
a judgment as a matter of law.” Fed. R. Civ. P. 56(c).
The moving party has the burden of establishing that
there are no genuine issues of material fact, which
may be accomplished by demonstrating that the
nonmoving party lacks evidence to support an
essential element of its case. Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986). A genuine issue for trial
exists if “the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). “[T]he standards upon which the court
evaluates the motions for summary judgment do not
change simply because the parties present cross­
motions.” Taft Broad. Co. v. United States, 929 F.2d
240, 248 (6th Cir. 1991).
Analysis
I. 29 U.S.C. § 1342(c) does not Require Court
Adjudication Prior to Termination of a Pension
Plan
29 U.S.C. § 1342(a) provides that a corporation
may institute proceedings to terminate a plan
whenever it determines that: “(1) the plan has not met
the minimum funding standard required under
section 412 of Title 26, (2) the plan will be unable to
pay benefits when due -. . or, (4) the possible long-run
loss of the corporation with respect to the plan may

68a
reasonably be expected to increase unreasonably if
the plan is not terminated.”
Section 1342(c) further provides that where a
corporation is required under subsection (a) to
commence proceedings, it may,
apply to the appropriate United States
district court for a decree adjudicating that
the plan must be terminated in order to
protect the interests of the participants or to
avoid any unreasonable deterioration of the
financial condition of the plan or any
unreasonable increase in the liability of the
fund ....
If [however] the corporation and the plan
administrator agree that a plan should be
terminated and agree to the appointment of a
trustee without proceeding in accordance
with the requirements of this subsection
(other than this sentence) the trustee shall
have the power described in subsection (d)(1)
and, in addition to any other duties imposed
on the trustee under law or by agreement
between the corporation and the plan
administrator, the trustee is subject to the.
duties described in subsection (d)(3).
Plaintiffs argue that § 1342(c) of ERISA required
PBGC to obtain a district court adjudication that
termination was necessary prior to terminating the
Salaried Plan via agreement with Delphi. Plaintiffs
further argue that termination of the Salaried Plan
was improper in light of PBGC’s negotiating leverage
with GM. According to Plaintiffs, PBGC could have,
and should have, exercised this leverage to negotiate
with GM for GM assumption of the Salaried Plan.

69a
Plaintiffs’ argument is without merit. Section
1342(c) clearly sets forth two alternative procedures
for termination of a pension plan: application to the
district court for a decree that the plan must be
terminated; or agreement between the corporation
and the plan administrator that the plan should be
terminated. Nearly every circuit to have considered
this issue has found the same. See, e.g., Allied Pilots
Ass’n v. Pension Ben. Guar. Corp., 334 F.3d 93, 97
(D.C. Cir. 2003); Pension Comm, for Farmstead Foods
Pension Plan for Albert Lea Hourly Employees v.
Pension Ben. Guar. Corp., 991 F.2d 1415, 1418 (8th
Cir. 1993); Jones & Laughlin Hourly Pension Plan v.
LTV Corp., 824 F.2d 197, 200 (2d Cir. 1987) (noting
that Congress expressly dispensed with the necessity
of a court adjudication); In re Syntex Fabrics, Inc.
Pension Plan, 698 F.2d 199, 201 (3d Cir. 1983); see
also Pension Ben. Guar. Corp. v. Durango Georgia
Paper Co., 251 F. App’x 664 (11th Cir. 2007).
Section 1342(c) required neither PBGC nor Delphi
to seek an adjudication prior to terminating the
Salaried Plan via agreement. Despite Plaintiffs’
assertions concerning PBGC’s leverage, the record
establishes that GM assumption of the Salaried Plan
was not a viable option. Whenever offered the
opportunity to assume the Salaried Plan, GM
repeatedly, and emphatically, declined. In fact, no
company offered to sponsor the Salaried Plan.
Because funding the Salaried Plan could not continue
without a sponsor, PBGC had no choice but to
terminate. PBGC acted in accordance with § 1342
when, after determining that the Salaried Plan had
not, and could not, meet the minimum funding
standard, it executed an agreement with Delphi to
terminate the Salaried Plan.

70a
II. PBGC Owed no Fiduciary Duties to Salaried
Plan Participants
Section 1342(c)(1) provides that where, as here,
“the corporation and the plan administrator agree
that a plan should be terminated and agree to the
appointment of a trustee . . . the trustee is subject to
the duties described in subsection (d)(3).” Section
1342(d)(3) explains that “ . .. a trustee appointed
under this section shall be subject to the same duties
as those of a trustee under section 704 of Title 11, and
shall be, with respect to the plan, a fiduciary within
the meaning of paragraph (21) of section 1002 of this
title and under section 4975(e) of Title 26 . . .
Plaintiffs argue that PBGC violated its fiduciary
obligations to the Plan participants when it decided to
terminate the Salaried Plan.
The problem with Plaintiffs’ argument is that
PBGC owed no fiduciary obligations to the Salaried
Plan participants until after the Plan was terminated
and PBGC became the Plan’s statutory trustee under
the Termination Agreement. Plaintiffs’ claim of
entitlement to sue PBGC for participating in “Delphi’s
fiduciary breach” is also without merit. Delphi’s
decision to terminate the Salaried Plan did not
implicate fiduciary duties. See Beck u. PACE Inti
Union, 551 U.S. 96, 127 (2007) (holding that “an
employer’s decision whether to terminate an ERISA
plan is a settlor function immune from ERISA’s
fiduciary obligations.”).
Plaintiffs’ interpretation of § 1342(c)(1) as
somehow imposing fiduciary obligations on PBGC is
unfounded. Adopting Plaintiffs’ position would
require this Court, to make two unprecedented
conclusions: first, that ERISA imposes fiduciary

71a
duties on Delphi, which cuts squarely against the
Supreme Court’s ruling in Beck; and second, that
PBGC absorbed these duties when it negotiated a
Termination Agreement with Delphi, which is
unsupported by the plain language of the statute and
the case law. Because PBGC owed no fiduciary duties
to the Salaried Plan beneficiaries when it made its
termination decision, the Court grants summary
judgment for PBGC on Plaintiffs’ ERISA claims.
III. Termination of the Salaried Plan did not
Deprive Plaintiffs of Due Process
Alternatively, Plaintiffs argue that termination of
the Salaried Plan violated the Due Process Clause. To
determine what procedural process is due prior to
terminating pension benefits, the Court considers
three factors: the private interest affected by
termination; the risk of an erroneous deprivation of
that private interest and the value of additional
procedural safeguards; and the Government’s
interest, including the fiscal and administrative
burdens additional protections would entail. Mathews
v. Eldridge, 424 U.S. 319 (1976).
In Jones & Laughlin Hourly Pension Plan, the
Second Circuit, applying the Mathews factors, held
that the administrative procedures set forth in §
1342(c) satisfy due process. 824 F.2d at 202. The
Court noted that termination of a pension plan
without a hearing is a possibility expressly
contemplated by ERISA and further noted and that
the retirees were free to file claims against the plan
administrator in bankruptcy court. Id. In addition,
the Court explained that the regime’s post­
deprivation remedies, which included civil actions
and restoration to pre-termination status, protected

72a
beneficiaries against
deprivation. Id.

the

risk

of

erroneous

The analysis in Jones & Laughlin Hourly Pension
Plan is wholly applicable here. Plaintiffs aired their
grievances concerning termination in the S.D.N.Y.
Bankruptcy Court. Furthermore, they fail to
acknowledge that as a result of PBGC’s assumption of
the Salaried Plan, over three-quarters of Plan
beneficiaries will receive their full benefits.
By terminating the Salaried Plan via agreement
with Delphi, PBGC acted in accordance with §
1342(c). Plaintiffs fail to meet their heavy burden of
establishing that PBGC’s conduct—which was
authorized by statute—deprived them of due process.
See United Steelworkers of Am., AFL-CIO, CLC v.
United Eng’g, Inc., 839 F. Supp. 1279, 1284 (N.D.
Ohio 1993), aff’d, 52 F.3d 1386 (6th Cir. 1995) (“In
challenging the constitutionality of economic
legislation as a violation of due process or equal
protection, a plaintiff must overcome a heavy
burden.”).
IV. Plaintiffs Have Failed to Demonstrate that
Termination of the Salaried Plan was Arbitrary
and Capricious
Plaintiffs argue that even if PBGC’s termination
of the Salaried Plan violated neither ERISA nor the
Due Process Clause, the Court should nevertheless
find that PBGC acted arbitrarily and capriciously in
violation of the APA.
Plaintiffs have offered no evidence to support this
claim. The record establishes that the Salaried Plan
was severely underfunded for guaranteed benefits at
the time of termination—approximately 50% funded.
There was no entity willing to sponsor the Salaried

73a
Plan upon Delphi’s liquidation. As defense counsel
explained at the hearing: “That is the paradigm
situation where PBGC’s guarantee is called upon . . .
[t]he money in the plan is taken over by PBGC, added
to [PBGC’s] funds, and it is used in part to defray the
benefits due, supplemented by PBGC’s insurance
funds to the extent that the plan is underfunded for
guaranteed benefits.” Hr’g Tr. 35:11-12; 19-22, Mar.
6, 2019.
In this case, PBGC and Delphi agreed to terminate
the Salaried Plan because the Plan failed to meet the
minimum-funding standard required under the
Internal Revenue Code and would be unable to pay
benefits when due. In light of Delphi’s liquidation,
PBGC faced the very real possibility of an
unreasonable increase in long-run loss if the Plan was
not terminated. Based on the record, this Court
cannot conclude that PBGC acted arbitrarily and
capriciously in terminating the Salaried Plan.
Conclusion
For the reasons explained above,
IT IS ORDERED that Plaintiffs’ Motion for
Summary Judgment [305, 308] is DENIED.
IT IS FURTHER ORDERED that Defendant’s
Motion for Summary Judgment [304] is GRANTED.
SO ORDERED.

Dated: March 22, 2019

s/Arthur J. Tarnow
Arthur J. Tarnow
Senior United States
District Judge

74a
APPENDIX D
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Dennis Black, et

Case No. 09-13616
[FILED MAR. 22, 2019]

AL.,

Plaintiffs,

Senior U.S. District
Judge Arthur J. Tarnow

v.

U.S. Magistrate Judge
Mona K. Majzoub

Pension Benefit
Guaran[y] Corp.,
Defendant.

/

JUDGMENT
All issues having been resolved by the Court’s
Order [322] of March 22, 2019, THIS CASE IS
CLOSED.
Dated at Detroit, Michigan, this 22nd day of
March 2019.
DAVID J. WEAVER
CLERK OF THE COURT
BY: s1 Arthur J. Tarnow
Deputy Clerk
Approved:
s/ Arthur J. Tarnow
ARTHUR J. TARNOW
SENIOR UNITED STATES DISTRICT JUDGE

75a
APPENDIX E
No. 19-1419
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DENNIS BLACK; CHARLES
CUNNINGHAM; KENNETH
HOLLIS; DELPHI SALARIED
RETIREE ASSOCIATION,

)

FILED

)

Feb 25, 2021

)
)

DEBORAH S.
HUNT, Clerk

v.

)

ORDER

PENSION BENEFIT
GUARANTY CORPORATION,

)

Plaintiffs - Appellants,

Defendant - Appellee.

)
)

Before: SILER, GIBBONS, and NALBANDIAN,
Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT
/ s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

76a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-1419
DENNIS BLACK; CHARLES
CUNNINGHAM; KENNETH
HOLLIS; DELPHI SALARIED
RETIREE ASSOCIATION,
Plaintiffs - Appellants,
v.
PENSION BENEFIT
GUARANTY CORPORATION,

FILED
Dec 28, 2020
DEBORAH S.
HUNT, Clerk

Defendant - Appellee.
Before: SILER, GIBBONS, and NALBANDIAN,
Circuit Judges.
AMENDED JUDGMENT
On Appeal from the United States District Court for
the Eastern District of Michigan at Detroit.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is
ORDERED that the judgment of the district court is
AFFIRMED.

ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

77a
APPENDIX G
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-1419
DENNIS BLACK; CHARLES
CUNNINGHAM; KENNETH
HOLLIS; DELPHI SALARIED
RETIREE ASSOCIATION,
Plaintiffs - Appellants,
v.
PENSION BENEFIT
GUARANTY CORPORATION,

FILED
Sep 01, 2020
DEBORAH S.
HUNT, Clerk

Defendant - Appellee.
Before: SILER, GIBBONS, and NALBANDIAN,
Circuit Judges.
JUDGMENT
On Appeal from the United States District Court for
the Eastern District of Michigan at Detroit.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is
ORDERED that the judgment of the district court is
AFFIRMED.

ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

78a
APPENDIX H
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 538
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988
DEBORAH S. HUNT
CLERK

Tel. (513) 564-7000
www.ca6.uscourts.gov
December 29, 2020
[FILED Dec. 29, 2020]

Mr. Anthony F. Shelley
Mr. Timothy P. O’Toole
Mr. John A. Menke
Mr. Craig Fessenden
Ms. Erin Kim
Mr. C. Wayne Owen
RE: Case No. 19-1419
Dennis Black, et al.
Guaranty Corp.

v. Pension Benefit

Dear Counsel:
Upon consideration of the petition for rehearing en
banc filed by the appellants, the hearing panel issued
an amended opinion.
In light of the panel’s action, we ask counsel for the
appellants to determine whether the petition for en
banc reconsideration is to be withdrawn. If it is not,
the appellants shall have until Tuesday, January 12,

79a
2021, to file a memorandum of law supplementing
their original petition. Should the appellee wish to
seek en banc reconsideration of the amended opinion,
it may do so by filing no later than Tuesday, January
12, 2021, an appropriate petition conforming with the
requirements of the Federal Rules of Appellate
Procedure and the Rules of the Sixth Circuit. If this
office does not hear from the parties by the close of
business Tuesday, January 12, 2021, we will render
the petition moot and no further action will be taken.
Very truly yours,
/s/ Deborah S. Hunt
Deborah S. Hunt
Clerk
bh

80a
APPENDIX I
29 U.S.C. § 1303. Operation for corporation
(a) Investigatory authority; audit of statistically
significant number of terminating plans. The
corporation may make such investigations as it deems
necessary to enforce any provision of this title or any
rule or regulation thereunder, and may require or
permit any person to file with it a statement in
writing, under oath or otherwise as the corporation
shall determine, as to all the facts and circumstances
concerning the matter to be investigated. The
corporation shall annually audit a statistically
significant number of plans terminating under
section 4041(b) [29 USCS § 1341(b)] to determine
whether participants and beneficiaries have received
their benefit commitments and whether section
4050(a) [29 USCS § 1350(a)] has been satisfied. Each
audit shall include a statistically significant number
of participants and beneficiaries.
(b) Discovery powers vested in board members
or officers designated by the chairman. For the
purpose of any such investigation, or any other
proceeding under this title, the Director, any member
of the board of directors of the corporation, or any
officer designated by the Director or chairman, may
administer oaths and affirmations, subpoena
witnesses, compel their attendance, take evidence,
and require the production of any books, papers,
correspondence, memoranda, or other records which
the corporation deems relevant or material to the
inquiry.
(c) Contempt. In case of contumacy by, or refusal to
obey a subpoena issued to, any person, the

81a
corporation may invoke the aid of any court of the
United States within the jurisdiction of which such
investigation or proceeding is carried on, or where
such person resides or carries on business, in
requiring the attendance and testimony of witnesses
and the production of books, papers, correspondence,
memoranda, and other records. The court may issue
an order requiring such person to appear before the
corporation, or member or officer designated by the
corporation, and to produce records or to give
testimony related to the matter under investigation
or in question. Any failure to obey such order of the
court may be punished by the court as a contempt
thereof. All process in any such case may be served in
the judicial district in which such person is an
inhabitant or may be found.
(d) Cooperation with other governmental
agencies. In order to avoid unnecessary expense and
duplication of functions among government agencies,
the corporation may make such arrangements or
agreements for cooperation or mutual assistance in
the performance of its functions under this title as is
practicable and consistent with law. The corporation
may utilize the facilities or services of any
department, agency, or establishment of the United
States or of any State or political subdivision of a
State, including the services of any of its employees,
with the lawful consent of such department, agency,
or establishment. The head of each department,
agency, or establishment of the United States shall
cooperate with the corporation and, to the extent
permitted by law, provide such information and
facilities as it may request for its assistance in the
performance of its functions under this title. The
Attorney General or his representative shall receive

\

82a
from the corporation for appropriate action such
evidence developed in the performance of its functions
under this title as may be found to warrant
consideration for criminal prosecution under the
provisions of this or any other Federal law.
(e) Civil actions by corporation; jurisdiction;
process; expeditious handling of case; costs;
limitation on actions.
Civil actions may be brought by the
(1)
corporation for appropriate relief, legal or
equitable or both, to enforce (A) the provisions of
this title, and (B) in the case of a plan which is
covered under this title (other than a
multiemployer plan) and for which the conditions
for imposition of a lien described in section
303(k)(l)(A) and (B) or 306(g)(1)(A) and (B) of this
Act [29 USCS § 1083(k)(l)(A) and (B) or 29 USCS
§ 1805a(g)(l)(A)] or section 430(k)(l)(A) and (B) or
433(g)(1)(A) and (B) of the Internal Revenue Code
of 1986 [26 USCS § 430(k)(l)(A) and (B) or 26
USCS § 433(g)(1)(A) and (B)] have been met,
section 302 of this Act [29 USCS § 1082] and
section 412 of such Code [26 USCS § 412],
(2) Except as otherwise provided in this title,
where such an action is brought in a district court
of the United States, it may be brought in the
district where the plan is administered, where the
violation took place, or where a defendant resides
or may be found, and process may be served in any
other district where a defendant resides or may be
found.
(3) The district courts of the United States shall
have jurisdiction of actions brought by the

83a
corporation under this title without regard to the
amount in controversy in any such action.
(4) [Repealed]
(5) In any action brought under this title, whether
to collect premiums, penalties, and interest under
section 4007 [29 USCS § 1307] or for any other
purpose, the court may award to the corporation
all or a portion of the costs of litigation incurred by
the corporation in connection with such action.
(6)
(A) Except as provided in subparagraph (C),
an action under this subsection may not be
brought after the later of—
(i) 6 years after the date on which the cause
of action arose, or
(ii)
3 years after the applicable date
specified in subparagraph (B).
(B)
(i) Except as provided in clause (ii), the
applicable
date
specified
in
this
subparagraph is the earliest date on which
the corporation acquired or should have
acquired actual knowledge of the existence
of such cause of action.
(ii) If the corporation brings the action as a
trustee, the applicable date specified in this
subparagraph is the date on which the
corporation became a trustee with respect
to the plan if such date is later than the date
described in clause (i).
(C) In the case of fraud or concealment, the
period described in subparagraph (A)(ii) shall

84a
be extended to 6 years after the applicable date
specified in subparagraph (B).
(f)
Civil
actions
against
corporation;
appropriate court; award of costs and expenses;
limitation on actions; jurisdiction; removal of
actions.
(1) Except with respect to withdrawal liability
disputes under part 1 of subtitle E [29 USCS §§
1381 et seq.], any person who is a plan sponsor,
fiduciary,
employer,
contributing
sponsor,
member of a contributing sponsor’s controlled
group, participant, or beneficiary, and is adversely
affected by any action of the corporation with
respect to a plan in which such person has an
interest, or who is an employee organization
representing such a participant or beneficiary so
adversely affected for purposes of collective
bargaining with respect to such plan, may bring
an action against the corporation for appropriate
equitable relief in the appropriate court.
(2) For purposes of this subsection, the term
“appropriate court” means—
(A) the United States district court before
which proceedings under section 4041 or 4042
[29 USCS § 1341 or 1342] are being conducted,
(B) if no such proceedings are being conducted,
the United States district court for the judicial
district in which the plan has its principal
office, or
(C) the United States District Court for the
District of Columbia.
(3) In any action brought under this subsection,
the court may award all or a portion of the costs

85a
and expenses incurred in connection with such
action to any party who prevails or substantially
prevails in such action.
(4) This subsection shall be the exclusive means
for bringing actions against the corporation under
this title, including actions against the corporation
in its capacity as a trustee under section 4042 [29
USCS § 1342] or 4049.
(5)
(A) Except as provided in subparagraph (C),
an action under this subsection may not be
brought after the later of—
(i) 6 years after the date on which the cause
of action arose, or
3 years after the applicable date
(ii)
specified in subparagraph (B).
(B)
(i) Except as provided in clause (ii), the
applicable
date
specified
in
this
subparagraph is the earliest date on which
the plaintiff acquired or should have
acquired actual knowledge of the existence
of such cause of action.
(ii) In the case of a plaintiff who is a
fiduciary bringing the action in the exercise
of fiduciary duties, the applicable date
specified in this subparagraph is the date on
which the plaintiff became a fiduciary with
respect to the plan if such date is later than
the date specified in clause (i).
(C) In the case of fraud or concealment, the
period described in subparagraph (A)(ii) shall

86a
be extended to 6 years after the applicable date
specified in subparagraph (B).
(6) The district courts of the United States have
jurisdiction of actions brought under this subsection
without regard to the amount in controversy.
(7) In any suit, action, or proceeding in which the
corporation is a party, or intervenes under section
4301 [29 USCS § 1451], in any State court, the
corporation may, without bond or security, remove
such suit, action, or proceeding from the State court
to the United States district court for the district or
division in which such suit, action, or proceeding is
pending by following any procedure for removal now
or hereafter in effect.

87a
29 U.S.C. § 1342. Institution of termination
proceedings by the corporation
(a) Authority to institute proceedings to
terminate a plan. The corporation may institute
proceedings under this section to terminate a plan
whenever it determines that—
(1) the plan has not met the minimum funding
standard required under section 412 of the
Internal Revenue Code of 1986 [26 USCS § 412],
or has been notified by the Secretary of the
Treasury that a notice of deficiency under section
6212 of such Code [26 USCS § 6212] has been
mailed with respect to the tax imposed under
section 4971(a) of such Code [26 USCS § 4971(a)],
(2) the plan will be unable to pay benefits when
due,
(3) the reportable event described in section
4043(c)(7) [29 USCS § 1343(c)(7)] has occurred, or
(4) the possible long-run loss of the corporation
with respect to the plan may reasonably be
expected to increase unreasonably if the plan is
not terminated.
The corporation shall as soon as practicable institute
proceedings under this section to terminate a single­
employer plan whenever the corporation determines
that the plan does not have assets available to pay
benefits which are currently due under the terms of
the plan. The corporation may prescribe a simplified
procedure to follow in terminating small plans as long
as that procedure includes substantial safeguards for
the rights of the participants and beneficiaries under
the plans, and for the employers who maintain such
plans (including the requirement for a court decree

88a
under subsection (c)). Notwithstanding any other
provision of this title, the corporation is authorized to
pool assets of terminated plans for purposes of
administration, investment, payment of liabilities of
all such terminated plans, and such other purposes as
it determines to be appropriate in the administration
of this title.
(b) Appointment of trustee.
Whenever the corporation makes a
(1)
determination under subsection (a) with respect to
a plan or is required under subsection (a) to
institute proceedings under this section, it may,
upon notice to the plan, apply to the appropriate
United States district court for the appointment of
a trustee to administer the plan with respect to
which the determination is made pending the
issuance of a decree under subsection (c) ordering
the termination of the plan. If within 3 business
days after the filing of an application under this
subsection, or such other period as the court may
order, the administrator of the plan consents to
the appointment of a trustee, or fails to show why
a trustee should not be appointed, the court may
grant the application and appoint a trustee to
administer the plan in accordance with its terms
until the corporation determines that the plan
should be terminated or that termination is
unnecessary. The corporation may request that it
be appointed as trustee of a plan in any case.
(2) Notwithstanding any other provision of this
title—
(A) upon the petition of a plan administrator
or the corporation, the appropriate United
States district eourt may appoint a trustee in

89a
accordance with the provisions of this section if
the interests of the plan participants would be
better served by the appointment of the
trustee, and
(B) upon the petition of the corporation, the
appropriate United States district court shall
appoint a trustee proposed by the corporation
for a multiemployer plan which is in
reorganization or to which section 404lA(d) [29
USCS § 1341a(d)] applies, unless such
appointment would be adverse to the interests
of the plan participants and beneficiaries in the
aggregate.
(3) The corporation and plan administrator may
agree to the appointment of a trustee without
proceeding in accordance with the requirements of
paragraphs (1) and (2).
(c) Adjudication that plan must be terminated.
(1) If the corporation is required under subsection
(a) of this section to commence proceedings under
this section with respect to a plan or, after issuing
a notice under this section to a plan administrator,
has determined that the plan should be
terminated, it may, upon notice to the plan
administrator, apply to the appropriate United
States district court for a decree adjudicating that
the plan must be terminated in order to protect the
interests of the participants or to avoid any
unreasonable deterioration of the financial
condition of the plan or any unreasonable increase
in the liability of the fund. If the trustee appointed
under subsection (b) disagrees with the
determination of the corporation under the
preceding sentence he may intervene in the

90a
proceeding relating to the application for the
decree, or make application for such decree
himself. Upon granting a decree for which the
corporation or trustee has applied under this
subsection the court shall authorize the trustee
appointed under subsection (b) (or appoint a
trustee if one has not been appointed under such
subsection and authorize him) to terminate the
plan in accordance with the provisions of this
subtitle [29 USCS §§ 1341 et seq.]. If the
corporation and the plan administrator agree that
a plan should be terminated and agree to the
appointment of a trustee without proceeding in
accordance with the requirements of this
subsection (other than this sentence) the trustee
shall have the power described in subsection (d)(1)
and, in addition to any other duties imposed on the
trustee under law or by agreement between the
corporation and the plan administrator, the
trustee is subject to the duties described in
subsection (d)(3). Whenever a trustee appointed
under this title is operating a plan with discretion
as to the date upon which final distribution of the
assets is to be commenced, the trustee shall notify
the corporation at least 10 days before the date on
which he proposes to commence such distribution.
(2) In the case of a proceeding initiated under this
section, the plan administrator shall provide the
corporation,- upon the request of the corporation,
the information described in clauses (ii), (iii), and
(iv) of section 4041(c)(2)(A) [29 USCS §
13 41 (c) (2) (A) (ii)—(iv)].
(3) Disclosure of termination information.
(A) In general.

91a
Information from plan sponsor or
(i)
administrator. A plan sponsor or plan
administrator of a single-employer plan
that has received a notice from the
corporation of a determination that the plan
should be terminated under this section
shall provide to an affected party any
information provided to the corporation in
connection with the plan termination.
(ii) Information from corporation. The
corporation shall provide a copy of the
administrative record, including the
trusteeship decision record of a termination
of a plan described under clause (i).
(B) Timing of disclosure. The plan sponsor,
plan administrator, or the corporation, as
applicable, shall provide the information
described in subparagraph (A) not later than
15 days after—
(i) receipt of a request from an affected
party for such information; or
in the case of information described
under subparagraph (A)(i), the provision of
any new information to the corporation
relating to a previous request by an affected
party.

(ii)

(C) Confidentiality.
(i) In general. The plan administrator, the
plan sponsor, or the corporation shall not
provide information under subparagraph
(A) in a form which includes any
information that may directly or indirectly

92a
be associated with, or otherwise identify, an
individual participant or beneficiary.
Limitation. A court may limit
(ii)
disclosure under this paragraph of
confidential information described in
section 552(b) of title 5, United States Code
[5 USCS § 552(b)], to authorized
representatives (within the meaning of
section 4041(c)(2)(D)(iv) [29 USCS §
1341(c)(2)(D)(iv)]) of the participants or
beneficiaries that agree to ensure the
confidentiality of such information.
(D) Form and manner of information; charges.
(i) Form and manner. The corporation may
prescribe the form and manner of the
provision of information under this
paragraph, which shall include delivery in
written, electronic, or other appropriate
form to the extent that such form is
reasonably accessible to individuals to
whom the information is required to be
provided.
(ii) Reasonable charges. A plan sponsor
may charge a reasonable fee for any
information provided under this paragraph
in other than electronic form.
(d) Powers of trustee.
(1)
(A) A trustee appointed under subsection (b)
shall have the power—
(i) to do any act authorized by the plan or
this title to be done by the plan
administrator or any trustee of the plan;

93a
(ii) to require the transfer of all (or any
part) of the assets and records of the plan to
himself as trustee;
(iii) to invest any assets of the plan which
he holds in accordance with the provisions
of the plan, regulations of the corporation,
and applicable rules of law;
(iv) to limit payment of benefits under the
plan to basic benefits or to continue
payment of some or all of the benefits which
were being paid prior to his appointment;
(v) in the case of a multiemployer plan, to
reduce benefits or suspend benefit
payments under the plan, give appropriate
notices, amend the plan, and perform other
acts required or authorized by subtitle (E)
[29 USCS §§ 1381 et seq.] to be performed
by the plan sponsor or administrator;
(vi) to do such other acts as he deems
necessary to continue operation of the plan
without increasing the potential liability of
the corporation, if such acts may be done
under the provisions of the plan; and
(vii) to require the plan sponsor, the plan
administrator,
any
contributing
or
withdrawn employer, and any employee
organization representing plan participants
to furnish any information with respect to
the plan which the trustee may reasonably
need in order to administer the plan.
If the court to which application is made under
subsection (c) dismisses the application with
prejudice, or if the corporation fails to apply for

94a
a decree under subsection (c) within 30 days
after the date on which the trustee is appointed
under subsection (b), the trustee shall transfer
all assets and records of the plan held by him
to the plan administrator within 3 business
days after such dismissal or the expiration of
such 30-day period, and shall not be liable to
the plan or any other person for his acts as
trustee except for willful misconduct, or for
conduct in violation of the provisions of part 4
of subtitle B of title I of this Act [29 USCS §§
1101 et seq.] (except as provided in subsection
(d)(l)(A)(v)). The 30-day period referred to in
this subparagraph may be extended as
provided by agreement between the plan
administrator and the corporation or by court
order obtained by the corporation.
(B) If the court to which an application is made
under subsection (c) issues the decree
requested in such application, in addition to
the powers described in subparagraph (A), the
trustee shall have the power—

(i) to pay benefits under the plan in
accordance with the , requirements of this
title;
(ii) to collect for the plan any amounts due
the plan, including but not limited to the
power to collect from the persons obligated
to meet the requirements of section 302 [29
USCS § 1082] or the terms of the plan;
(iii) to receive any payment made by the
corporation to the plan under this title;

95a
(iv) to commence, prosecute, or defend on
behalf of the plan any suit or proceeding
involving the plan;
(v) to issue, publish, or file such notices,
statements, and reports as may be required
by the corporation or any order of the court;
(vi) to liquidate the plan assets;
(vii) to recover payments under section
4045(a) [29 USCS § 1345(a)]; and
(viii) to do such other acts as may be
necessary to comply with this title or any
order of the court and to protect the
interests of plan participants and
beneficiaries.
(2) As soon as practicable after his appointment,
the trustee shall give notice to interested parties
of the institution of proceedings under this title to
determine whether the plan should be terminated
or to terminate the plan, whichever is applicable.
For purposes of this paragraph, the term
“interested party” means—
(A) the plan administrator,
(B) each participant in the plan and each
beneficiary of a deceased participant,
{C) each employer who may be subject to
liability under section 4062 [29 USCS § 1362],
4063 [29 USCS § 1363], or 4064 [29 USCS §
1364],
(D) each employer who is or may be liable to
the plan under [section] part 1 of subtitle E [29
USCS §§ 1381 et seq.],

96a
(E) each employer who has an obligation to
contribute, within the meaning of section
4212(a) [29 USCS § 1392(a)], under a
multiemployer plan, and
(F) each employee organization which, for
purposes of collective bargaining, represents
plan participants employed by an employer
described in subparagraph (C), (D), or (E).
(3) Except to the extent inconsistent with the
provisions of this Act, or as may be otherwise
ordered by the court, a trustee appointed under
this section shall be subject to the same duties as
those of a trustee under section 704 of title 11,
United States Code [11 USCS § 704], and shall be,
with respect to the plan, a fiduciary within the
meaning of paragraph (21) of section 3 of this Act
[29 USCS § 1002(21)] and under section 4975(e) of
the Internal Revenue Code of 1986 [26 USCS §
4975(e)] (except to the extent that the provisions
of this title are inconsistent with the requirements
applicable under part 4 of subtitle B of title I of
this Act [29 USCS §§ 1101 et seq.] and of such
section 4975 [26 USCS § 4975]).
(e) Filing of application notwithstanding
pendency of other proceedings. An application by
the corporation under this section may be filed
notwithstanding the pendency in the same or any
other court of any bankruptcy, mortgage foreclosure,
or equity receivership proceeding, or any proceeding
to reorganize, conserve, or liquidate such plan or its
property, or any proceeding to enforce a lien against
property of the plan.
(f) Exclusive jurisdiction; stay of other
proceedings. Upon the filing of an application for

97a
the appointment of a trustee or the issuance of a
decree under this section, the court to which an
application is made shall have exclusive jurisdiction
of the plan involved and its property wherever located
with the powers, to the extent consistent with the
purposes of this section, of a court of the United States
having jurisdiction over cases under chapter 11 of
title 11 of the United States Code [11 USCS §§ 1101
et seq.]. Pending an adjudication under subsection (c)
such court shall stay, and upon appointment by it of
a trustee, as provided in this section such court shall
continue the stay of, any pending mortgage
foreclosure, equity receivership, or other proceeding
to reorganize, conserve, or liquidate the plan or its
property and any other suit against any receiver,
conservator, or trustee of the plan or its property.
Pending such adjudication and upon the appointment
by it of such trustee, the court may stay any
proceeding to enforce a lien against property of the
plan or any other suit against the plan.
(g) Venue. An action under this subsection may be
brought in the judicial district where the plan
administrator resides or does business or where any
asset of the plan is situated. A district court in which
such action is brought may issue process with respect
to such action in any other judicial district.
(h) Compensation of trustee and professional
service personnel appointed or retained by
trustee.
(1) The amount of compensation paid' to each trustee
appointed under the provisions of this title shall
require the prior approval of the corporation, and, in
the case of a trustee appointed~by a court, the consent
of that court.

98a
(2) Trustees shall appoint, retain, and compensate
accountants, actuaries, and other professional service
personnel in accordance with regulations prescribed
by the corporation.

99a
29 U.S.C. § 1347. Restoration of plans
Whenever the corporation determines that a plan
which is to be terminated under section 4041 or 4042
[29 USCS § 1341 or 1342], or which is in the process
of being terminated under section 4041 or 4042 [29
USCS § 1341 or 1342], should not be terminated
under section 4041 or 4042 [29 USCS §§ 1341, 1342]
as a result of such circumstances as the corporation
determines to be relevant, the corporation is
authorized to cease any activities undertaken to
terminate the plan, and to take whatever action is
necessary and within its power to restore the plan to
its status prior to the determination that the plan was
to be terminated under section 4041 or 4042 [29 USCS
§ 1341 or 1342]. In the case of a plan which has been
terminated under section 4041 or 4042 [29 USCS §
1341 or 1342] the corporation is authorized in any
such case in which the corporation determines such
action to be appropriate and consistent with its duties
under this title, to take such action as may be
necessary to restore the plan to its pretermination
status, including, but not limited to, the transfer to
the employer or a plan administrator of control of part
or all of the remaining assets and liabilities of the
plan.

